<html>
<title> - EXAMINING THE CHALLENGES FACING DRINKING WATER AND WASTEWATER INFRASTRUCTURE PROJECTS</title>
<body><pre>[Senate Hearing 117-12]
[From the U.S. Government Publishing Office]




                                                    S. Hrg. 117-12

     EXAMINING THE CHALLENGES FACING DRINKING WATER AND WASTEWATER 
                        INFRASTRUCTURE PROJECTS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                                AND THE

                      SUBCOMMITTEE ON FISHERIES, 
                          WATER, AND WILDLIFE

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             MARCH 17, 2021

                               ----------                              

 Printed for the use of the Senate Committee on Environment and Public 
                                 Works
                                 
                                 
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                  
                                 


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        
        

            EXAMINING THE CHALLENGES FACING DRINKING WATER 
                 AND WASTEWATER INFRASTRUCTURE PROJECTS
                 
                 



                                                         S. Hrg. 117-12
 
     EXAMINING THE CHALLENGES FACING DRINKING WATER AND WASTEWATER 
                        INFRASTRUCTURE PROJECTS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                                AND THE

                      SUBCOMMITTEE ON FISHERIES, 
                          WATER, AND WILDLIFE

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2021

                               __________

 Printed for the use of the Senate Committee on Environment and Public 
                                 Works
                                 
                                 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                 


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                            ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
44-459PDF           WASHINGTON : 2021         
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                  THOMAS R. CARPER, Delaware, Chairman
BENJAMIN L. CARDIN, Maryland         SHELLEY MOORE CAPITO, West 
BERNARD SANDERS, Vermont                 Virginia, 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma
EDWARD J. MARKEY, Massachusetts      KEVIN CRAMER, North Dakota
TAMMY DUCKWORTH, Illinois            CYNTHIA M. LUMMIS, Wyoming
DEBBIE STABENOW, Michigan            RICHARD SHELBY, Alabama
MARK KELLY, Arizona                  JOHN BOOZMAN, Arkansas
ALEX PADILLA, California             ROGER WICKER, Mississippi
                                     DAN SULLIVAN, Alaska
                                     JONI ERNST, Iowa
                                     LINDSEY O. GRAHAM, South Carolina

             Mary Frances Repko, Democratic Staff Director
               Adam Tomlinson, Republican Staff Director
                                 ------                                

             Subcommittee on Fisheries, Water, and Wildlife

                  TAMMY DUCKWORTH, Illinois, Chairman
BENJAMIN L. CARDIN, Maryland         CYNTHIA M. LUMMIS, Wyoming, 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
EDWARD J. MARKEY, Massachusetts      JAMES M. INHOFE, Oklahoma
DEBBIE STABENOW, Michigan            KEVIN CRAMER, North Dakota
MARK KELLY, Arizona                  JOHN BOOZMAN, Arkansas
THOMAS R. CARPER, Delaware (ex       DAN SULLIVAN, Alaska
    officio)                         JONI ERNST, Iowa
                                     SHELLEY MOORE CAPITO, West 
                                         Virginia (ex officio)
                                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 17, 2021
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................     5
Duckworth, Hon. Tammy, U.S. Senator from the State of Illinois...     7
Lummis, Hon. Cynthia M., U.S. Senator from the State of Wyoming..     9

                               WITNESSES

Powell, Kishia L., Chief Operating Office and Executive Vice 
  President, DC Water............................................    13
    Prepared statement...........................................    15
    Response to an additional question from:
        Senator Carper...........................................    18
        Senator Kelly............................................    18
        Senator Sullivan.........................................    20
Chard, Shellie R., Director of the Water Quality Division, 
  Oklahoma Department of Environmental Quality...................    21
    Prepared statement...........................................    23
    Response to an additional question from:
        Senator Kelly............................................    43
        Senator Sullivan.........................................    44
McNulty, Michael, General Manager, Morgantown Utility Board......    46
    Prepared statement...........................................    48
    Response to an additional question from Senator Carper.......    52
Ohle, Nathan, Chief Executive Officer, Rural Community Assistance 
  Program........................................................    53
    Prepared statement...........................................    56
    Responses to additional questions from Senator Carper........    60
    Response to an additional question from:
        Senator Kelly............................................    61
        Senator Sullivan.........................................    62

                          ADDITIONAL MATERIAL

Clean Watersheds Needs Survey 2012, Report to Congress, U.S. 
  Environmental Protection Agency, January 2016..................    90
The Economic, Job Creation, and Federal Tax Revenue Benefits of 
  Increased Funding for the State Revolving Fund Programs, the 
  Water Environment Federation and WateReuse, April 2016.........   131
Healthy Benefits of Green Infrastructure in Communities, Science 
  in Action, U.S. Environmental Protection Agency................   139
Annual Report to the Congress of the United States on Sanitation 
  Deficiency Levels for Indian Homes and Communities, Indian 
  Health Service, Fiscal Year 2018...............................   141
Drinking Water Infrastructure Needs Survey and Assessment, Sixth 
  Report to Congress, U.S. Environmental Protection Agency, March 
  2018...........................................................   198
Water Sector Cybersecurity Risk Management Guidance, American 
  Water Works Association, copyright 2019........................   271
Letter to Andrew Sawyers, Director, Office of Wastewater 
  Management, U.S. Environmental Protection Agency, from the 
  Council of Infrastructure Financing Authorities, May 6, 2019...   327
Water Infrastructure Financing: History of EPA Appropriations, 
  Congressional Research Service, updated April 10, 2019.........   331
Climate Resilience: A Strategic Investment Approach for High-
  Priority Projects Could Help Target Federal Resources, U.S. 
  Government Accountability Office, October 2019.................   374
Many Native Americans Can't Get Clean Water, Report Finds, 
  npr.org, November 18, 2019.....................................   446
Closing the Water Access Gap in the United States: A National 
  Action Plan, DigDeep and the US Water Alliance, copyright 2019.   451
Statement from the American Shore and Beach Preservation 
  Association, April 22, 2020....................................   536
The Economic Benefits of Investing in Water Infrastructure, the 
  American Society of Civil Engineers............................   544
The Financial Impact of the COVID-19 Crisis on U.S. Drinking 
  Water Utilities, the American Water Works Association and the 
  Association of Metropolitan Water Agencies, April 14, 2020.....   583
S.A.F.E. Water Infrastructure Action Plan, Council of 
  Infrastructure Financing Authorities, April 21, 2020...........   621
Climate Change: A Climate Migration Pilot Program Could Enhance 
  the Nation's Resilience and Reduce Federal Fiscal Exposure, 
  U.S. Government Accountability Office, July 2020...............   624
Water Infrastructure: Technical Assistance and Climate Resilience 
  Planning Could Help Utilities Prepare for Potential Climate 
  Change Impacts, U.S. Government Accountability Office, January 
  2020...........................................................   685
Rules eased for water from showerheads, a Trump pet peeve, 
  apnews.com, December 16, 2020..................................   776
Lack of access to basic needs like running water intensifies 
  coronavirus fight for Navajo Nation, cbsnews.com, May 11, 2020.   779
Study: More Than 200 Million Americans Could Have Toxic PFAS in 
  Their Drinking Water, ewg.org, October 14, 2020................   780
E.P.A. Relaxes Rules Limiting Toxic Waste From Coal Plants, the 
  New York Times, August 31, 2020................................   782
During Droughts, Many Poor Americans Will Lack Clean Tap Water: 
  Study, U.S. News and World Report, April 30, 2020..............   785
Americans are told to wash hands to fight coronavirus. But some 
  don't trust the tap, the Washington Post, May 5, 2020..........   788
Millions of Americans risk losing power and water as massive, 
  unpaid utility bills pile up, the Washington Post, October 1, 
  2020...........................................................   795
Trump administration rolls back Obama-era rule aimed at limiting 
  toxic wastewater from coal plants, the Washington Post, August 
  31, 2020.......................................................   799
Like `Peanut Brittle': Mississippi Water Crisis Highlights 
  Infrastructure Problems, npr.org, March 3, 2021................   802
A Comprehensive Assessment of America's Infrastructure, the 
  American Society of Civil Engineers, March 3, 2021.............   805
Wastewater, 2021 Infrastructure Report Card......................   825
Climate-Proofing Water Systems Needs Billions, Advocates Say (3), 
  news.bloomberglaw.com, February 25, 2021.......................   836
A Recent Survey Casts New Light On America's Racial Divide In 
  Clean Tap Water Access, Forbes, February 28, 2021..............   840
Water infrastructure--the unmet needs of low-income communities, 
  The Hill, February 3, 2021.....................................   845
Texas Shows Us Our Water Future with Climate Change: It Ain't 
  Pretty, nrdc.org, February 26, 2021............................   848
Background Info for Bi-Partisan Memo and Witness Prep............   855
Childhood Lead Poisoning Prevention, cdc.org, accessed March 4, 
  2021...........................................................   871
Different Shades of Green, U.S. Environmental Protection Agency..   873
Small Drinking Water Systems Research and Development, Science in 
  Action, U.S. Environmental Protection Agency...................   885
Recovering from Coronavirus: Mitigating the Economic Cost of 
  Maintaining Water and Wastewater Service in the Midst of a 
  Global Pandemic and National Economic Shut-Down, the National 
  Association of Clean Water Agencies............................   887
Letter to Senators Carper et al. from the Association of 
  Metropolitan Water Agencies, March 17, 2021....................   889
Environmental Protection Agency, Proposed Information Collection 
  Request; Comment Request; Information Collection Request for 
  the 2020 Drinking Water Infrastructure Needs Survey and 
  Assessment (DWINSA), the Federal Register, February 5, 2020....   893
Local Government Investment in Municipal Water and Sewer 
  Infrastructure: Adding Value to the National Economy, the U.S. 
  Conference of Mayors, Mayors Water Council, August 14, 2008....   895
America's Water Sector Workforce Initiative: A Call to Action, 
  U.S. Environmental Protection Agency...........................   922
The Path Forward, the National Association of Clean Water 
  Agencies and the Association of Metropolitan Water Agencies....   959
Texas Winter Storm: What to Know, the New York Times, updated 
  March 12, 2021.................................................   960
Oldsmar's water supply attack is a warning, experts say. It 
  could've been worse, the Tampa Bay Times, updated February 10, 
  2021...........................................................   964
National Utility Contractors Association statement, March 17, 
  2021...........................................................   975
Letter to Senators Carper and Capito from the National Stone, 
  Sand & Gravel Association, March 17, 2021......................   977
American Chemical Council Statement for the Record, March 17, 
  2021...........................................................   979
Letter to U.S. Representative Nancy Pelosi et al. from the Water 
  Foundation et al., March 19, 2021..............................   981


     EXAMINING THE CHALLENGES FACING DRINKING WATER AND WASTEWATER 
                        INFRASTRUCTURE PROJECTS

                              ----------                              


                       WEDNESDAY, MARCH 17, 2021

                               U.S. Senate,
         Committee on Environment and Public Works,
                                   jointly with the

            Subcommittee on Fisheries, Water, and Wildlife,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 10:01 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Thomas R. Carper 
(Chairman of the Committee) presiding.
    Present: Senators Carper, Capito, Cardin, Markey, 
Duckworth, Stabenow, Kelly, Padilla, Inhofe, Lummis, Boozman, 
Wicker, Sullivan, and Ernst.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Good morning, everybody. It is Tom Carper 
on a train.
    I am on a train because of my friend, Joe Biden. Joe Biden 
had been up in Wilmington last night, slept in his own bed so 
he could go to the St. Patrick's Day breakfast and mass at St. 
Patrick's Church, which is literally halfway between my house 
and the train station.
    Unbeknownst to me the whole city of Wilmington practically 
was shut down, and no traffic was moving. I know the police 
pretty well, but there was no way they were going to let me go 
through, so I ended up missing my train. I thought, maybe I 
will just drive down, but they also shut down access to I-95.
    So I ended up on the next train, and I am joining you 
remotely, but I have never done this before, so we will see how 
it works out. If I am jumping around, it is because of the 
train is jumping around. I am not jittery; it is just the 
train.
    My pastor has a saying: When God closes a door, he opens a 
window. In this case, he sent another train that happened to be 
going south, and I am on that train.
    Shelley, I wish I could be there with you. Hopefully, I 
will be there within about 40 minutes or so.
    Today's hearing is on water infrastructure. Clean water, 
including clean drinking water, I want to put it in context if 
I could.
    The reason why we are having this hearing is because we 
were unable to come to an agreement at the end of last year 
when we worked on WRDA, the last good WRDA bill.
    The WRDA bill, you may recall, was something that all of us 
worked on, all of us contributed to on our Committee and off 
the Committee, as well. I believe that, in the WRDA bill, which 
ended up passing, as part of the omnibus, as I recall, had 46 
projects, Army Corps of Engineers projects, 46 projects that 
were valued at about $15 billion.
    I think there were another 27 or so feasibility studies in 
WRDA, and I think there is a couple billion dollars' worth of 
covered maintenance projects from the Harbor Maintenance Trust 
Fund to go on top the earlier. That is $4 billion worth of 
projects paid for out of the Harbor Maintenance Trust Fund. 
That was all work we did right at the end of the year before it 
was included in the Omnibus Trust Fund.
    People ask me oftentimes, sometimes when I am standing at 
Biden Station on the platform waiting for the train, people say 
to me, why can't you guys and gals just find stuff to work on 
together? As it turns out, there is great bipartisan support 
for infrastructure writ large, and not just water projects, not 
just Army Corps of Engineers, not just clean water, drinking 
water, wastewater projects, harbor maintenance projects. There 
is agreement on broadband deployment. I think we put in the 
American Rescue [indiscernible] broadband projects. I think 
about another $6 billion or so that was passed about a week or 
two ago. We were well on our way toward a running start with 
respect to surface transportation.
    On February 10th, Senator Capito, Senator Inhofe, Senator 
Cardin, and I joined President Biden in the Oval Office along 
with the Vice President, and along with the Secretary of 
Transportation for just a great, almost not a long meeting 
about surface transportation.
    That was followed up on February 19th, Senator Capito and I 
sent out letters to all 98 other Senators asking everybody to 
submit to our Committee their surface transportation 
priorities. We gave them a month deadline, March 19th to finish 
doing that. We are beginning to hear, to get those responses.
    We did a similar kind of thing with WRDA. We always ask our 
colleagues, what are your priorities. We do the same thing with 
respect to surface transportation, and we are beginning to hear 
from everybody. The last day, the due date on that is March the 
19th.
    You may recall we had our first hearing on surface 
transportation on February 24th. A couple of Governors there 
from Michigan, from Maryland, from Ben's State. We had a mayor 
from Denver; we had a commissioner, I call her Secretary of 
Transportation from New Hampshire. Great hearing. Very good 
attendance. I think everybody, all but two people on the 
Committee, participated either live or virtually at that 
hearing.
    More recently, on March the 9th, I spent about half an hour 
or so on the phone with Secretary Buttigieg just talking about 
surface transportation and trying to make sure that we are on 
the same wavelength.
    I mention those things just to--let's see, what I am 
forgetting here. Oh yes, we are going to have a number of 
hearings between now and the end of May. Our hope, Senator 
Capito and I, hope for our Committee to be able to report out 
surface transportation reauthorization before Memorial Day. We 
will have a number of hearings between now and then.
    My hope is we will be able to have our next hearing on or 
about April 14th, that would be a hearing on vehicle miles 
traveled, 50 State pilot, just to see how the EMT pilots are 
going on in the other States.
    We are doing that already. We are a little more than a 
month or two into the new Congress, and we are not wasting any 
time. We reported out, I think if we report out our surface 
transportation bill before Memorial Day, that will be about 2 
months ahead of our schedule from 2 years earlier, so that 
would be great.
    Let me go ahead, if I can, and just go ahead and make my 
statement. We are just pulling into Union Station. Hopefully, 
they won't throw me off. This is a through train.
    I just want to say we have been joined today by an 
outstanding panel of witnesses: Kishia Powell, Shellie Chard, 
Michael McNulty, and Nathan Ohle.
    I hope I got your name right there, Nathan.
    We thank you all for joining us, either in person or 
remotely.
    I want to begin today by thanking Senators Duckworth, 
Cardin, Lummis for their leadership in exploring legislation to 
address the challenges facing our Nation through our neglect 
and lack of investment in America's water infrastructure.
    If you think about it, the admonition to making the 
necessary investments in our water infrastructure can be traced 
all the way back to the words of Thomas Jefferson in the 
Declaration of Independence when he talked about inalienable 
rights. It included life, liberty, and the pursuit of 
happiness, and I think we all know and recognize that in order 
to have life, frankly, in order to have liberty and happiness, 
we need water.
    There is also a moral admonition here. Matthew 25, when I 
was thirsty, did you give me drink, and the idea in Matthew 25 
is, if you have given me dirty water, polluted water to drink. 
The idea is clean water, and so we have a moral obligation.
    In terms of what our founding fathers had in mind for us, 
we have, I think, that responsibility.
    Sadly, the reality for far too many communities around our 
country is that they don't have reliable access to water that 
is essential for daily life.
    One case in particular off the top of my head, we will 
never forget Flint, Michigan, in 2014. Lead contamination in 
Flint's drinking water created a humanitarian disaster, leading 
thousands of families without water to drink, to bathe in, or 
to cook with.
    One of our newest members of our Committee is Debbie 
Stabenow. That is something that she worked on then, she works 
on even today.
    Sadly, Flint is not an isolated incident. With the current 
state of our water systems, there are multiple offenses waiting 
to happen across our country.
    Every 4 years, the American Society of Civil Engineers puts 
out a report card, and that report card assesses the State of 
our Nation's infrastructure. I think we have created a couple 
of posters here for you to see how we are doing, how our grades 
are coming along. The grades continue to be a cause for 
concern.
    We look at these charts, last month's report card, our 
aging water drinking system earned a C minus, estimating that 
there is a water main break every 2 minutes in America. I am 
told that in the course of a day, that is enough water to fill, 
get this, over 9,000 swimming pools--over 9,000 swimming pools. 
I had my staff check that out, and they said that is true.
    Wastewater treatment facilities fared even worse, graded D 
plus. Our Nation has over 1 million miles of sewer wastewater 
pipes, and on average, they are 45 years old. Many systems date 
back more than a century.
    Those aren't the kind of grades that my wife and I ever 
wanted our boys to come home and show us. I am sure they are 
not the kind of grades that you want your kids or your 
grandchildren to bring home, either.
    These poor grades that we have just seen demonstrate, show 
how cities and towns around the Nation struggle to maintain 
their drinking water systems and prepare to maintain their 
drinking water systems, and prepare for the threats that 
emanate from climate change, including extreme storms and 
rising sea levels.
    In its biannual high risk report published just this month, 
GAO, the Government Accountability Office, urges that climate 
resilience measures be taken for water infrastructure projects 
that receive Federal financial assistance,
    I think we have a chart here. I am going to quote right 
from the chart. It says, ``Congress should consider requiring 
that climate resilience be incorporated in the plan of all 
drinking water and wastewater projects that receive Federal 
financial assistance.'' Those are the words of GAO.
    That emphasis on climate resilience makes a whole lot of 
sense when you look at the water related crises caused by 
extreme weather just last month in many parts of the south. In 
Oklahoma, Texas, Jackson, Mississippi, millions of families 
were left without access to safe drinking water. That is a 
disaster should never have occurred, and it is a disaster that 
should never occur again.
    But there is some good news on this chart, because 
fortunately, when we invest in water infrastructure, that 
investment not only pays for itself, but it also helps 
[indiscernible] the economy of our country. Water touches just 
about every part of our economy, perhaps even more than people 
may realize.
    The Commerce Department tells us, when we add one job in 
the wastewater industry, it leads to the creation of an 
additional four jobs in America. I am reminded once again, 
words I often repeat of Albert Einstein, in adversity, lies 
opportunity.
    Clearly, the adversity we face is great. But if we seize 
the day and make smart investments and planning, save the water 
for our communities, those investments more than pay for 
themselves in the long run through the creation of good paying 
American jobs.
    With that having been said, we are pulling into Union 
Station. Thank you, God, and I can't believe this is working.
    With that, let me turn to our Ranking Member, Senator 
Shelley Capito, for her opening remarks and to ask her to go 
ahead, and when she finishes up, to start introducing our 
witnesses.
    I look forward to joining you shortly. Thank you so much. 
See you in a little bit.
    Shelley, take it away.
    Thank you.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito [presiding]. Got it. I want to thank the 
Chairman. He seems a little jumpy today.
    [Laughter.]
    Senator Capito. I don't know what you guys think.
    In any event, good effort there on the part of our 
Chairman, and I want to thank him also, again, for his 
leadership in putting this hearing together.
    I want to thank our witnesses, and I very much look forward 
to hearing their discussions on this important topic. This 
Committee values your perspectives on the challenges facing 
this Nation's water infrastructure, as well as your thoughts on 
effective solutions to address these challenges.
    So, I appreciate our regular conversations that I have with 
the Chairman. He can't hear me, but I think he knows how much 
those mean to me and to both of us.
    Every day, Americans rely on the infrastructure that 
supports our drinking water systems and our wastewater systems. 
These are systems that the Nation prides itself on, providing 
access to clean and safe water at the turn of a handle.
    Unfortunately, this Nation is facing critical challenges to 
the resilience of these systems, with many of the rural 
communities being disproportionately affected by the wide array 
of water infrastructure challenges. Small, rural communities 
are particularly strained and need support to ensure protection 
and availability of this vital resource.
    Many systems in my State of West Virginia are very old, as 
I am sure that is the same in every single State. When I am 
talking very old, I am talking in excess of 100 years. Some of 
our systems do not even know where their pipes are because the 
infrastructure predates the mapping research.
    Additionally, reports have shown that only one-quarter of 
the water West Virginia systems pay to have treated and pumped 
even reach a faucet, so water is a valuable resource, and think 
of all that that we are losing. Of course, some rural 
communities lack municipal drinking water service and sanitary 
wastewater infrastructure entirely.
    These challenges are not unique to my State. They exist 
throughout the country in rural and urban and tribal 
communities alike. The time for action to address these 
challenges is right now. I am committed to addressing the 
challenges facing the Nation's water infrastructure 
expeditiously, in a bipartisan way, and with an approach that 
prioritizes the need.
    Chairman Carper has set an aggressive timeline to address 
these needs legislatively. I appreciate that. I have been 
pleased to negotiate with him to address water infrastructure 
priorities, and I think we are very close to a final, 
bipartisan agreement.
    Last year, several drinking water and wastewater provisions 
approved unanimously by this Committee in America's Drinking 
Water Infrastructure Act and the Drinking Water Infrastructure 
Act failed to reach the finish line before the end of the 
Congress. I think the Chairman mentioned that. These carefully 
negotiated, bipartisan provisions are the perfect jumping off 
point to address the challenges this Congress has in a timely 
and bipartisan fashion in clearing the way for new concepts in 
future legislation.
    It is vital that we continue to work across the aisle to 
provide solutions that ensure communities across the country 
are able to meet their water demands. This responsibility 
includes a recognition that continued funding at the Federal 
level is necessary to address the various hindrances preventing 
resilient infrastructure among our water systems.
    But we also need to acknowledge that continued or increased 
funding is only a solution insofar as the funding targets the 
actual infrastructure where needs are most apparent, and those 
needs can take many forms. They include priorities I have 
worked on, such as ensuring that systems have pipes that do not 
leak and ensuring there is a sustainable water work force in 
place to maintain and operate continued and new infrastructure 
investments.
    I think we need to also start really considering the 
serious risks posed by our cyber security threats.
    Different public water operators face different issues, and 
we have a duty to ensure that these systems are equipped with 
the right tools to address these various needs.
    When all you have is a hammer, everything looks like a 
nail, but that poses a challenge when you need to drive a 
screw. Likewise, pretending that throwing more taxpayer dollars 
at infrastructure needs will fix the problems alone, without 
knowing what the actual needs are, where they are, and how they 
will be most effectively addressed, will only get us so far. 
That is why this Committee must ensure that we provide the 
right tools in the drinking water and wastewater infrastructure 
toolbox, and I think we are well on our way to building on last 
Congress's good work.
    I am committed to working on these issues that are so 
important to me, the citizens of the State of West Virginia, 
and my fellow Committee members. I know these issues are 
important to my friends on the other side of the aisle, and I 
have no doubt we will continue to work hard together to address 
these critical challenges.
    There are many priorities where we share common ground, and 
this certainly is one of them. I look forward to our continued 
partnership in this area and to rolling up our sleeves on 
behalf of the Nation that relies on us to ensure the safety and 
reliability and availability of drinking water and wastewater 
service.
    So, thank you, Mr. Chairman, as you are bumping along 
there.
    I will now recognize the Chairman of the Fisheries, Water, 
and Wildlife Subcommittee, Senator Duckworth, for an opening 
statement.

          OPENING STATEMENT OF HON. TAMMY DUCKWORTH, 
            U.S. SENATOR FROM THE STATE OF ILLINOIS

    Senator Duckworth. Thank you so much, Ranking Member 
Capito. Yes, I hope he gets off the train before it turns 
around and goes back to Delaware.
    [Laughter.]
    Senator Duckworth. Although, missing the hearing because of 
St. Patrick's Day mass is an acceptable excuse for me as a 
Senator from Illinois. I would never be able to show my face 
back in Chicago were I not to accept that excuse.
    I would like to start by just giving everyone an Irish 
blessing. As you can tell from looking at me, my ancestry 
begins in Ireland. May the blessings of each day be the 
blessings that you need the most.
    Thank you for holding today's joint hearing, Chairman 
Carper, with the Subcommittee on Water. Today, we will discuss 
one of the most critical issues for communities in Illinois and 
throughout the Nation: Drinking water and wastewater 
infrastructure.
    When discussing this topic, I am reminded of a moment that 
still haunts me to this day at a House Oversight Committee 
hearing on the Flint water crisis a few years back. At the 
time, my baby girl, my older daughter, was just a year old.
    I remember looking out into the audience that was filled 
with residents of Flint, Michigan, who had gotten on buses and 
ridden all the way to Washington, DC, because they wanted their 
voices heard. It was a sea of faces in that hearing room. At 
the very back, I couldn't see her face, but I could see her 
hand, and it was a woman's hand holding up a little baby bottle 
that had a pink top on it. It was the exact same bottle that I 
used to feed my daughter, except that in this baby bottle, the 
water was brown.
    I remember thinking, what if I had had to drink this water 
while I was pregnant? What if that was the only water that I 
had to make the formula for my baby?
    That was really the beginning of my advocacy for water.
    What the community of Flint faced was unacceptable, and it 
is unthinkable that so many other communities in this country 
have similar stories or face similar threats.
    The danger is particularly elevated for my home State of 
Illinois, which, by one estimate, may be home to nearly 25 
percent of all existing lead service lines in the entire United 
States. The city of Chicago alone is estimated to have roughly 
400,000 lead service lines. That is more than any other city in 
the Nation.
    This dynamic underlies why strengthening programs and 
investments under the Safe Drinking Water Act and the Clean 
Water Act have been, and remain, one of my top priorities in 
the Senate.
    While contaminated drinking water has received more 
attention in recent years, run down wastewater infrastructure 
also threatens our health and our home. For example, the town 
of Centreville, Illinois, has horrible flooding and sewage 
overflows due to outdated water infrastructure.
    Can you imagine living your life fearful of sewage 
overflowing into your home daily? How about celebrating 
Christmas with toilet paper in your front yard because the 
sewer system has backed up yet once again?
    Every American has a right to clean water, no matter their 
zip code, the color of their skin, or the size of their income. 
Investing in projects that put Americans back to work locally 
to build better water infrastructure is how we will make that 
right a reality. Of course, it will take time, given where we 
are starting from.
    Despite the growing need for investments in water 
infrastructure, the Federal Government's share of capital 
spending in the water sector actually fell by 63 percent in 
1977 to a meager 9 percent in 2017. This pattern must end. 
Federal, State, and local governments must all chip in and pay 
their fair share, so that one day, every American can be 
confident in the water that flows from their taps and from 
their drinking fountains in their children's schools.
    We must increase Federal investments in EPA water and 
wastewater infrastructure programs in order to modernize our 
systems. Making systems more efficient, more affordable, and 
more resilient for generations to come must be a priority.
    That is why I am working with Chairman Carper and Ranking 
Member Capito on a comprehensive drinking water and wastewater 
infrastructure bill. This bill would need to increase funding 
in critical Federal programs, including the State Revolving 
Loan Funds, WIFIA, lead reduction grants, sewer overflow 
control grants, and many other critical initiatives.
    I will push for this bill to increase technical assistance 
funding and create programs or modify existing programs that 
have lower, non-Federal cost shares. I will work to increase 
grants, rather than loans, so that all communities can receive 
assistance in protecting their families, and not just those 
that can afford it.
    As the witnesses will testify today, the need is real, and 
the time is now to address the water infrastructure in this 
country. From permanent brain damage to overflowing sewage to 
costly service interruptions, our constituents are now 
experiencing the harms that result from allowing our drinking 
water and wastewater systems to age into a state of disrepair. 
Our Nation must be willing to invest hundreds of billions of 
dollars over multiple decades to provide every family access to 
the most basic human need: Clean water.
    Modernizing and upgrading water infrastructure must be at 
the heart of the ongoing build back better efforts, where 
nothing will be better if we only fix our roads but fail to 
repair and upgrade the pipes beneath them.
    As Subcommittee chair, I look forward to working with our 
Ranking Member Lummis to getting a bill to President Biden's 
desk and to kick starting a national effort toward a long term 
goal of providing families in Illinois and across our Nation 
clean, safe, and reliable water.
    Thank you, Chairman Carper, for making this a priority for 
the Committee, because it absolutely is a priority for me and 
my home State. With that, I yield back.
    Senator Capito. Thank you, Senator Duckworth.
    Now I will recognize the Ranking Member of that 
Subcommittee, Senator Lummis from Wyoming.

         OPENING STATEMENT OF HON. CYNTHIA M. LUMMIS, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Lummis. Thank you, and thanks to Chairman Carper. 
He will be here, I believe, in the flesh soon, and Ranking 
Member Capito. So nice to be with you this morning. Thanks for 
convening this hearing.
    We welcome our witnesses. Thanks for taking the time to 
share your views on SRF and water infrastructure with us this 
morning.
    I am so pleased to be working with Senator Duckworth. We 
served together in the House, enjoyed each other's company 
then. I am sure we will now.
    The Lummis family, during the century of the 1800s were at 
Quincy, Illinois. That was where the family homestead was. At 
Quincy, Illinois, they had a triage hospital during the Civil 
War. They would bring the wounded up the river or down the 
river, whichever case it was, to Quincy, and that was where the 
family ranch was.
    We ended up moving farther west later on, but it is nice to 
be with you again. I am so pleased to be working with you. I am 
confident that this will be the continuation of a productive 
relationship in Congress.
    As we work together on the important items found in our 
Subcommittee jurisdiction, including topics of drinking water 
and wastewater infrastructure before us today, proper oversight 
of the Federal Government and its myriad of programs is one of 
the fundamental duties of Congress. So I am hopeful this will 
be just the first of many oversight hearings in our Committee.
    Access to clean and safe drinking water, especially during 
these challenging times, is critical to both public health and 
restoring our economy. The primary mechanism for financing 
water infrastructure is from State and local sources, including 
the collection of user fees. But funding has not kept pace with 
the growing need to address an aging system. Only 20 percent of 
very large utilities and 10 percent of small utilities report 
that they will be able to provide full cost service in 5 years.
    The EPA's Clean Water, State Revolving Fund, and Drinking 
Water State Revolving Fund, or SRFs, complement these funding 
efforts, and do it in a very responsible way. When I was State 
treasurer, I served on the State Loan and Investment Board. We 
administer the State Revolving Funds. So in the States, they 
have tremendous oversight, and the capability of them 
leveraging further projects, which I think is the ideal way for 
the Federal Government to distribute funding.
    Most of our Nation's drinking water and wastewater 
utilities are small. Over 90 percent of the country's roughly 
50,000 community water systems serve populations fewer than 
10,000 people. Roughly 80 percent of America's 17,000 
wastewater utilities serve populations fewer than 10,000 
people. Rural and small communities, like many found in my 
State of Wyoming, have greater difficulty affording public 
wastewater service due to low population density and lack of 
economies of scale.
    Rural communities also have lower average median household 
incomes and often have higher rates of poverty, only 
compounding the challenge. It follows, then, that rural water 
and wastewater services have a more difficult time complying 
with Clean Water Act and Safe Drinking Water Act regulations 
and permits.
    You have mentioned, Senator Duckworth, that this is an 
issue in your State of Illinois, as well.
    Large communities often have extensive teams of experts, 
including highly trained operators, engineers, and chemists, 
while smaller communities face the regulatory burdens of the 
same complex systems, albeit smaller in scale. They often have 
only one operator doing multiple jobs. This is very typical in 
my State. These factors reinforce the need for increased 
flexibility and relief for these communities.
    This past week, Wyoming faced some challenging weather. I 
missed 2 days here because I couldn't make it back. I couldn't 
even get to my house on the ranch in Cheyenne. I had to stay in 
town, dig out, just to get to the streets. We had between 31 
and 55 inches of snow. It was tremendous.
    Mark Pepper, the executive director of the Wyoming 
Association of Rural Water Systems, shared with my office some 
of the work he and his team had to do to make sure water 
continued to flow to our residents during this storm. One of 
his recent e-mails to one of my staffers reads as follows: 
``Again, sorry for the delay. We have been working on a system 
that had a tank mixer, which circulates water to prevent ice or 
freeze build up, experience a power failure on a 300,000 gallon 
tank on a 100 foot pedestal. I am finally starting to unthaw. 
We had to take the tank offline and switch to using pumps to 
supply water to residents.
    ``Fortunately, no water quality or quantity issues, or EPA 
Safe Drinking Water Act actions for now. But the tank damage is 
such that it will be a few days to make repairs sufficient to 
come back online and fix it permanently. We had to drain the 
tank by breaking through the ice shield, use a submersible heat 
pump to get the flow going, and then get it drained to inspect 
the damage. Did all this while 100 feet off the ground, 
harnessed and tethered to the tank.''
    By the way, he wanted everybody to know that he did it in a 
completely OSHA compliant way.
    [Laughter.]
    Senator Lummis. This is just one small example of the work 
rural water systems are doing in challenging conditions. I 
appreciate the work that Mark and others do, particularly in 
our small and rural communities, to keep our water supplies 
secure.
    I am anxious to learn from our witnesses how these EPA 
water programs can be improved to make the job of our providers 
and servicers even easier.
    Welcome back, in the flesh, Mr. Chairman. We appreciated 
your remarks while you were still on the train, and Mr. 
Chairman, I yield back.
    Senator Carper [presiding]. Good morning, everyone. A 
lovely morning. Today is St. Patrick's Day. The luck of the 
Irish.
    On this day, Joe Biden decided to be back in Delaware and 
attend mass at St. Patrick's Cathedral, which is right on my 
way to the train station. The city of Wilmington Police, I 
think every police officer and police car in Wilmington were 
literally on the streets of Wilmington, blocking traffic 
everywhere, including to the train station.
    I should have stopped and had mass.
    Jim Inhofe and I go to Bible study with a bunch of our 
colleagues, Democrat and Republican colleagues, most Thursdays. 
A week or two ago, Barry Black, our chaplain, said these words 
to us. He says, when God closes a door, he opens a window. In 
this case, the window was Zoom, and it actually works on a 
train, which I had no idea, so I can just stop coming to 
hearings. We will just do it on a train.
    But the luck of the Irish worked, and I am happy to be here 
with all of you. I apologize.
    Senator Duckworth. I hope you weren't on the quiet car, Mr. 
Chairman.
    Senator Carper. I was not.
    [Laughter.]
    Senator Carper. I went all the way to the front car, the 
front car, and there weren't many people up there, so I had 
perfect quiet, and it worked. So thank you all for holding 
everybody together.
    Senator Capito, thank you for your statement, and Senator 
Duckworth and Senator Lummis also for yours.
    We are now going to move to our witnesses. I want to thank 
Kishia Powell for joining us this morning. Ms. Powell is the 
Chief Operating Officer of DC Water and Vice President of the 
National Association of Clean Water Agencies.
    We appreciate your taking the time to join us today.
    Senator Inhofe, I believe you would like to introduce Ms. 
Chard. Shellie Chard, who hails from Oklahoma. Take it away, 
please.
    Senator Inhofe. Thank you very much, Mr. Chairman. I am 
real proud to have Shellie Chard here. She is a 1992 graduate 
of the University of Oklahoma, with a bachelor's degree in 
chemical engineering and biotechnology. She has 29 years of 
experience implementing the Clean Water Act and Safe Drinking 
Water Act, comparable State statutes and operator certificate 
programs.
    She served as an officer for and on the board of directors 
of organizations like Water Environment Federation, Association 
of Clean Water Administrators, Association of State Drinking 
Water Administrators, Groundwater Protection, and many, many 
others.
    Now, Shellie, in case this sounds familiar to you, this 
introduction, this is exactly the introduction I gave you 10 
years ago, and in using the same words.
    At that time, that was a big issue. Republicans were a 
minority. It was during the Obama administration, and of 
course, there was a tendency to try to get things more toward 
the Federal Government at that time.
    The big issue of the day among the ag community was the 
WOTUS bill, trying to get the regulation from the States to the 
Federal Government, something that we disagreed with. You did a 
great job at that time witnessing, and I am sure you will do 
the same thing today.
    Since that time, you have gone on to become President of 
the Association of Safe Drinking Water Administrators and the 
Association of Clean Water Administrators. You are an 
incredible lifelong Oklahoman who has worked tirelessly to find 
creative ways to implement our Federal and State water 
programs. It is safe to say that you probably know more about 
this than anyone up here at this table. We welcome you to 
testify today.
    Senator Carper. That is damning with faint praise, for the 
record. Actually, we have learned a few things over the years.
    Shellie, we thank you for joining us.
    Thank you, Senator Inhofe, for introducing her.
    Next, let me recognize again Senator Capito, who is going 
to introduce another of our witnesses, the General Manager of 
the Utility Board in Morgantown, West Virginia.
    Senator Capito. Thank you, Senator Carper. The two 
Shelleys; I am getting mixed up here. I don't know which 
Shelley we are taking about.
    Senator Carper. We can never have enough.
    Senator Capito. I am glad to have another Shelley, yes.
    I am really happy that Mike McNulty is here. We are very 
good friends, and he has more than 30 years of experience in 
West Virginia's water industry.
    He is currently now the General Manager of the Morgantown 
Utility Board in West Virginia. He has been there since October 
2020. He started his career at the Public Service Commission in 
West Virginia, and then went to the Logan County Public Service 
District.
    In 2001, he moved to the West Virginia Rural Water 
Association, where I had a lot of, as we all do, talk to our 
rural water associations on their visits when they used to 
come. So I miss seeing Mike in person. He was the executive 
director there. Then he spent time as the general manager of 
the Putnam County Public Service District, which is actually a 
regional district.
    Mike is not a stranger to this Committee, much like Senator 
Inhofe's witness. During his time at the Public Service 
District in Putnam, he appeared before this Water and Wildlife 
Subcommittee to discuss the Elk River chemical spill that left 
300,000 people in southern West Virginia, of which I was one, 
without clean water for several days, and actually some people 
for several weeks.
    He has a master's of science in public administration from 
Marshall and a bachelor's degree in mechanical engineering from 
West Virginia University Institute of Technology.
    Mike, thank you for joining us here today.
    He will give us some great insights, and I thank you for 
the opportunity to introduce him.
    Thank you, Mr. Chair.
    Senator Carper. Did you say Marshall?
    Senator Capito. Marshall.
    Senator Carper. Marshall. We are Marshall?
    Senator Capito. We are Marshall.
    Senator Carper. We are Marshall. My sister is a graduate of 
there, and the bursar or assistant bursar is my cousin, Bob 
Collier. So we love Marshall.
    Michael, welcome. We have a couple of Michael McNultys in 
Delaware as well, so whichever one you are. Maybe you are 
related to one of ours; you never know.
    Thank you very much for joining us, and Senator Capito, 
thank you for introducing him.
    Next, I want to welcome Nathan Ohle, the Chief Executive 
Officer of the Rural Community Assistance Partnership, Mr. 
Ohle, thank you for joining us.
    I think with that, I think we can go to our statements. We 
are going to lead off with Ms. Powell, and we will start with 
you. You will be recognized for roughly 5 minutes, then we will 
hear from the other witnesses, and then we will ask some 
questions. You are our lead off hitter, and batter up. Go 
ahead. Play ball.
    Thanks. Welcome.

  STATEMENT OF KISHIA L. POWELL, CHIEF OPERATING OFFICER AND 
               EXECUTIVE VICE PRESIDENT, DC WATER

    Ms. Powell. Good morning, and thank you, Chairman Carper, 
Ranking Member Capito, and all members of the Committee for the 
invitation to testify before you on the urgent and growing need 
for increased Federal investment in water infrastructure.
    My name is Kishia Powell, and I am the Chief Operating 
Officer of DC Water, responsible for providing drinking water 
and wastewater services to over 672,000 residents, schools, and 
businesses across Washington, DC, and wastewater treatment 
service for 1.6 million people in neighboring counties of 
Maryland and Virginia.
    Serving as Vice President of the National Association of 
Clean Water Agencies, or NACWA, I am honored to testify on 
behalf of NACWA and more than 330 public clean water utilities 
we represent nationwide.
    For over 50 years, NACWA has represented publicly owned 
clean water utilities whose mission is to ensure that the 
communities they serve have access to safe, reliable, and 
affordable clean water services while also ensuring the highest 
level of public health and environmental protections. As part 
of that mission, NACWA has long advocated for the Federal 
Government to recommit to a full and long term partnership with 
local communities to invest in and build critical water 
infrastructure.
    I bring a clear message today. Now, more than ever, the 
Nation's public clean water utilities need a significant 
increase in Federal clean water investment. The current Federal 
share of water infrastructure funding nationwide is less than 5 
percent, leaving our ratepayers to cover 95 percent of the 
financial burden.
    In my time as the Public Works Director for Jackson, 
Mississippi, I recall finding it unacceptable that we could 
fill potholes with grant funding, but we were forced to take 
out an emergency loan to address a public health issue when the 
lead action level was exceeded.
    Public clean water utilities are at a tipping point. 
Already faced with the challenge of maintaining and replacing 
aging infrastructure, grappling with the impacts of climate 
change on our most vulnerable communities, and spending 
billions to meet our compliance obligations, the COVID-19 
pandemic has exacerbated the financial strain for many clean 
water utilities as arrearages have grown to an estimated $8.7 
billion in revenue losses. Like DC Water, most utilities have 
raised rates for years to meet the compliance obligations of 
the Federal Clean Water and Safe Drinking Water Acts.
    It must be recognized that if it is important for the 
Federal Government to regulate, it is equally important to 
provide funding to meet these increasingly stringent 
requirements. For the burden from this disparity is often borne 
by households of color and contributes to an increasingly acute 
environmental justice challenge.
    For several years, DC Water has been at the forefront of 
meeting these challenges. Even as the income gap widens among 
our ratepayers, we are still investing in needed upgrades to 
our aging infrastructure to achieve intergenerational equity 
and meet our compliance obligations. At the heart of these 
efforts is the Authority's DC Clean Rivers Program, a $2.7 
billion infrastructure program designed to capture and clean 
wastewater during rainfalls before it ever reaches local 
waterways.
    The program's investments are on track to deliver a 96 
percent reduction in system-wide combined sewer overflow 
volume, 1 million pounds of nitrogen reduction to the 
Chesapeake Bay, and an economic impact of 41,850 jobs over the 
life of the program, to name a few benefits.
    NACWA believes that increased funding for key existing 
Federal programs like the Clean Water State Revolving Fund, 
Sewer Overflow and Stormwater Reuse Municipal Grants, and WIFIA 
is critically important. NACWA calls on Congress to provide a 
substantial amount of funding for the water sector, at least on 
par with other essential infrastructure sectors, in any 
upcoming infrastructure package and to make more funding 
available as grants.
    NACWA also urges establishment of a permanent Federal Low 
Income Water Assistance Program to aid vulnerable household in 
paying for water and wastewater services more affordably. We 
appreciate the initial funding of this program through the 
COVID-19 relief packages, but more must be done to ensure that 
grandmothers on a fixed income, single parent households 
struggling to make ends meet, or the family who has now seen a 
recent job loss due to the pandemic are not forced to choose 
between safe drinking water and clean water services or staying 
in their home.
    As our country looks to rebound from the pandemic, put 
people to work and build stronger, healthier communities, NACWA 
calls on Congress to make a strong commitment to reinvesting in 
water infrastructure. Congress has an opportunity to turn a 
generational problem into a multi-generational solution.
    This concludes my testimony. I would be happy to answer any 
questions the Committee may have.
    [The prepared statement of Ms. Powell follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Senator Carper. All right, Ms. Powell. Thanks for that 
opening statement.
    Next is Ms. Chard.
    You are recognized at this time, please proceed. Thank you.

 STATEMENT OF SHELLIE R. CHARD, DIRECTOR OF THE WATER QUALITY 
     DIVISION, OKLAHOMA DEPARTMENT OF ENVIRONMENTAL QUALITY

    Ms. Chard. Good morning Chairman Carper, Ranking Member 
Capito, Subcommittee Chairwoman Duckworth, and Subcommittee 
Ranking Member Lummis, and all members of the Committee. Thank 
you for this opportunity to appear before you and discuss how 
we can best address the protection of public health through 
increased infrastructure funding and through the collaborative 
partnerships among the States, Tribes, territories, and the 
Federal Government in implementing water programs.
    My name is Shellie Chard, and I am the current past-
president of the Association of State Drinking Water 
Administrators whose 57 members include the 50 States, five 
territorial programs, the District of Columbia, and the Navajo 
Nation. Our members have primary authority for implementing the 
Safe Drinking Water Act and are on the front lines every day 
providing technical assistance, support, and oversight of 
drinking water systems, which are critically important to 
ensure safe drinking water and protecting public health in our 
country.
    Also, I am the Water Quality Division Director of the 
Oklahoma Department of Environmental Quality, where I oversee 
the drinking water, wastewater, stormwater, operator 
certification and training programs and water reuse programs. 
Additionally, I serve on the Board of Trustees for the Water 
Environment Federation, the Board of Directors for Groundwater 
Protection Council, the National Drinking Water Advisory 
Council, and have previously served as the President of the 
Association of Safe Drinking Water Administrators. Today, I 
will address ASDWA's perspective on challenges facing drinking 
water and my own experiences on the challenges facing drinking 
water and wastewater infrastructure.
    If there is anything we have learned this past year, and it 
is really a re-learning of what we have always known, it is 
that water is life. The provision of safe water is essential to 
protecting public health as we continue to fight the COVID 
pandemic serving as a stark reminder of how vulnerable people 
without access to clean water are to COVID and other illnesses.
    In the wake of this public health crisis, many systems 
halted water shutoffs for non-payment as customers struggled to 
pay their bills amid significant unemployment across the 
country. These decisions, which were made in the best interest 
of public health, have real financial impacts. In California 
alone, it is estimated that there are 1.6 million households 
with a combined water debt of around a billion dollars--billion 
with a B--due to the pandemic.
    Water systems are still bearing the cost to treat and 
deliver safe water without being able to recuperate their 
costs. The devastating February winter storm that plunged much 
of the U.S. into record breaking cold weather serves as a 
reminder of a different kind. Water and wastewater systems must 
become more resilient to significant weather events and changes 
in climate. Water and wastewater systems are facing an 
increasing number of significant weather events, including 
wildfires, ice storms, flooding, hurricanes, and drought.
    These systems often operate out of sight and out of mind, 
and only garner attention when there is a failure. The recent 
winter storm showed all of us the very real consequences to 
these facilities. Building more resilient and adaptable water 
infrastructure is essential to ensuring a safe future.
    Considering the entire water cycle is important, and I 
really want to emphasize the word cycle. The U.S. bifurcates 
water management between the Clean Water Act and Safe Drinking 
Water Act, but it really is all one water. Treatment and 
wastewater systems impact the water quality of the downstream 
drinking water, and drinking water treatment impacts wastewater 
treatment reused in our surface water bodies.
    It is critical that we have strong Federal funding through 
drinking water and clean water State Revolving Funds and 
continue to emphasize at the Federal, State, and local levels 
the importance of holistic water management.
    As State water programs prepare for the new lead and copper 
rule, take on PFAS sampling and treatment, upgrade cyber 
security, and work toward resiliency, there is one piece of 
infrastructure that is often forgotten, and that is the human 
infrastructure that it takes to provide safe water.
    The water sector is facing substantial work force 
replacement needs at every level. The aging work force and high 
rate of retirement in the sector are placing pressures on 
utilities to find the next generation of workers. This means 
more training is needed for water system operators and 
managers, as well as State and Federal regulators.
    These training programs through community colleges, 
vocational schools, correctional facilities, and apprenticeship 
programs in coordination with the Department of Commerce, are 
helping to bridge this gap, but funding is needed. Ultimately, 
increased Federal funds through existing programs like the SRF 
and the State and Tribal Assistance Grants, which funds water 
programs, are needed to protect public health.
    State programs and water and wastewater systems are 
struggling to meet the challenges we are now facing, including 
changing weather patterns, resulting in extreme events, aging 
infrastructure, increased Federal regulatory standards, and 
addressing unregulated contaminants. Without continued Federal 
funding for States and water and wastewater systems, we will 
all continue to struggle with public health.
    Thank you for the opportunity to be here before you today, 
and I look forward to the continued dialogue and the importance 
of infrastructure funding.
    Thank you.
    [The prepared statement of Ms. Chard follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
       
    Senator Carper. Ms. Chard, can you hear me?
    Ms. Chard. Yes, sir.
    Senator Carper. Where are you this morning?
    Ms. Chard. Good, thank you.
    Senator Carper. No, where?
    Ms. Chard. I am in Oklahoma City, at my office.
    Senator Carper. Oklahoma City. Very nice, thank you.
    All right. Jim, thanks for introducing her the second time. 
You said last time was 10 years ago?
    Ms. Chard. The last time I was before this Committee was 10 
years ago.
    Senator Carper. All right.
    Michael McNulty, are you out there somewhere, maybe even in 
Morgantown? Where are you, Michael?
    Mr. McNulty. Good morning. Yes, I am in Morgantown this 
morning.
    Senator Carper. Morning Morgantown. That is a great song.
    Mr. McNulty. And I was in Beckley over the weekend.
    Senator Carper. Were you in Beckley, where I was born? That 
is great. It is like a home game.
    Thank you for joining us, Michael. Good to hear from you. 
Take it away.

                 STATEMENT OF MICHAEL MCNULTY, 
           GENERAL MANAGER, MORGANTOWN UTILITY BOARD

    Mr. McNulty. Thank you.
    Good morning Chairman Carper, Ranking Member Capito, and 
members of the Committee. Thank you for the opportunity to 
discuss our Nation's water and wastewater utilities.
    From the onset of the COVID-19 pandemic, there have been 
three primary messages: Wear a mask, social distance, and wash 
your hands.
    I respectfully draw your attention to the last part: Wash 
your hands. Thanks to the work of trained operators at more 
than 148,000 active water systems across this great country of 
ours, safe, reliable water is available.
    Thanks to our Nation's more than 16,000 publicly owned 
wastewater treatment systems, the 82 gallons of water each 
American uses a day is safely treated. Thanks to tens of 
thousands of maintenance staff, it is reliably transported.
    The fact is, our Nation's water and wastewater 
professionals are so efficient, they are easy to overlook. When 
people turn on a faucet, safe water flows. When they flush a 
toilet, the waste is removed and treated. Not a second thought 
is given to how these systems work.
    However, beneath the surface of all this wonderfully 
orchestrated engineering and science, an unseen crisis brews. 
According to the American Society of Civil Engineers' 2021 
report card on America's infrastructure, utilities were 
replacing, on average, one-half of 1 percent of aged water 
pipes per year in 2015. By 2019, this percentage increased to 
as much as 4.8 percent, a reflection of aging infrastructure.
    The same applies to the sewer side. While much of the 
wastewater infrastructure was constructed in the 1970s with 
passage of the Clean Water Act in 1972, when constructed, the 
lifespan of these systems was 40 to 50 years. Today, we are at 
the end of that lifespan, and the systems are in need of 
upgrading.
    On top of this, we have increasingly stringent regulatory 
compliance obligations. Although I am not here to discuss this 
specifically, increased regulation results in increased 
compliance costs. These are very real dollars that ratepayers 
must bear.
    When combined with required upgrades, investments in raw 
water protection, and enhanced draw and treated water 
monitoring, the pressure on ratepayers intensifies. 
Affordability, especially among vulnerable populations, is a 
very real issue. This is certainly true given the financial 
ramifications of the pandemic.
    Then there is the fact that 50 percent of the work force 
within our industry will retire in the coming decade. This is 
something we are very much aware of at the Morgantown Utility 
Board. Within the last month, we have lost more than 150 years 
of experience due to retirement, with more on the way. Going 
back 12 months, we have easily lost more than 300 years of 
experience.
    While these challenges apply to all sizes of water and 
sewer utilities, they are particularly relevant to rural 
systems. According to the American Society of Civil Engineers, 
just 9 percent of all community water systems serve over 257 
million people, while the bulk of community systems serve 
communities with populations under 10,000.
    The utilities not only struggle to maintain their systems, 
but have fewer customers per mile of pipeline to share costs. 
We see this in West Virginia, where some communities have been 
without safe drinking water for years, while others struggle to 
provide waste disposal.
    If you are looking for answers, I can tell you that the 
complex array of funding mechanisms that exist will not solve 
the problem. For example, expending funds to improve a system 
that lacks professionally trained support staff is not a long 
term solution. Yes, we do need extremely low cost to no 
interest loans, grants, and even debt forgiveness to upgrade 
our water and wastewater infrastructure, but we also need 
direct grants to recruit, train, and retain professional level 
staff.
    To encourage the merger of smaller systems to better share 
costs, we need incentives, rather than heavy handed 
regulations. Rural utilities need the ability to apply funds to 
meet their unique set of circumstances and not a one size fits 
all approach.
    Certainly, we can all agree that no child should go thirsty 
or unbathed because a parent cannot afford the water or sewer 
bill. We can all agree that no senior citizen should have to 
choose between buying their medications or paying a utility 
bill, and we can all agree that no American should turn on a 
faucet and wonder if the water coming out of it is safe.
    Again, thank you for your time and for addressing this very 
important issue.
    [The prepared statement of Mr. McNulty follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Carper. Michael, thanks so much. Great to see and 
hear from you.
    Next is our fourth and final witness.
    Mr. Ohle, we are thrilled that you have joined us. Please 
proceed, and then we will have some questions.
    Thanks.

   STATEMENT OF NATHAN OHLE, CHIEF EXECUTIVE OFFICER, RURAL 
                  COMMUNITY ASSISTANCE PROGRAM

    Mr. Ohle. Thank you, Chairman Carper, Ranking Member 
Capito, Subcommittee Chair Duckworth, Subcommittee Ranking 
Member Lummis, and members of the Committee for this 
opportunity to address the needs of water systems in small, 
rural, and tribal communities.
    My name is Nathan Ohle, and I am the CEO of the Rural 
Community Assistance Partnership. RCAP is a national network of 
non-profit partners working to provide technical assistance, 
training, and resources to rural and tribal communities in 
every State, territory, and on tribal lands.
    Through our regional partners, more than 300 technical 
assistance providers build capacity that leads to sustainable 
and resilient water and wastewater systems. Our approach is 
grounded in long term, trusted relationships with thousands of 
rural and tribal communities across the country.
    Last year, RCAP served more than 3.4 million rural and 
tribal residents in more than 2,000 of the smallest, most 
distressed communities across the country. The average 
population of the communities we served was 1,500, with a 
median household income of half the national average. We served 
more than 40 percent of America's persistent poverty counties 
and almost 300,000 individuals from indigenous communities.
    In addition, with people of color representing 21 percent 
of the rural population and 83 percent of rural population 
growth, we support a rural America that is increasingly 
diverse.
    The talent, innovation, and resiliency of America's rural 
areas will play a central role in the future of the U.S. 
economy. Water is a driving factor for economic growth. Of the 
approximately 150,000 public water systems across the country, 
97 percent serve communities of 10,000 or less, and 72 percent 
serve communities of 500 or less.
    COVID-19 has further exacerbated the challenges rural 
communities face, as they had not yet fully recovered from the 
2008 recession. To better understand the pandemic's impact on 
rural and tribal systems, RCAP conducted a survey in May 2020. 
The responses we received were startling: More than 31 percent 
of systems estimated that they would not be able to continue to 
cover all costs for more than 6 months, due to an estimated 
revenue loss of between $3.6 billion and $5.5 billion for small 
systems.
    Perhaps even more alarming, more than 43 percent of systems 
surveyed said they rely on one full time operator or less, 
leaving many communities at risk if their operator fell ill.
    With these mounting financial losses, many communities were 
forced to defer infrastructure projects, adding to the more 
than $1 trillion in needed updates for the water sector over 
the next 25 years, according to EPA. This burden largely falls 
on communities. Federal funding for water infrastructure is a 
paltry 3.5 percent of annual investment in the sector, down 
from 63 percent 50 years ago.
    Funding is incredibly important, but in small communities, 
it is not enough. Technical assistance is needed to build and 
strengthen local capacity to take on these challenges.
    The recent work of the Committee has been extremely 
beneficial to the communities we serve. Last Congress, EPW 
produced two drinking water and wastewater infrastructure 
bills, DWIA 2020 and AWIA 2020, which included several 
important policies.
    DWIA 2020 reauthorized a program that allows for up to 2 
percent of the Drinking Water SRF for TA and extended TA to 
EPA's Small and Disadvantaged Communities Grant Program. DWIA 
2020 also extended the EPA's National Priority Area Technical 
Assistance Program to communities that are facing an imminent 
threat to public health and allowed nonprofits like RCAP to 
provide TA to schools and childcare facilities to ensure that 
water is safe for every child.
    One major unexpected emergency can leave small utilities 
financially distressed. With a small base of ratepayers, loans 
may not work for these communities. DWIA 2020 requires States 
to use 20 percent of the Drinking Water SRFs for grants, 
negative interest loans, or to refinance debt.
    AWIA 2020 also included several TA provisions, creating the 
circuit rider programs to assist small systems and grant 
programs to improve efficiencies at small utilities and to 
address emergency response plans and risk and resiliency 
assessments.
    Some people in rural communities are not connected to any 
wastewater system, resulting in raw sewage in yards and 
waterways, contaminated drinking water for residents, and 
chronic debilitating diseases like hookworm.
    Challenges like this can trap people in a vicious cycle of 
poverty.
    I want to thank Senators Capito, Booker, and former Senator 
Jones for the introduction of a bill that would create a grant 
program to address these challenges, and I commend the 
committee for including it in AWIA 2020.
    Finally, one priority for rural communities did not make it 
into DWIA or AWIA: The creation of a low income water customer 
assistance program. According to most recent estimates, the 
non-metro poverty rate was 16.1 percent, much higher than in 
metro areas. Further, counties experiencing long term poverty 
are almost exclusively rural.
    We have assistance programs for low income Americans for 
food, shelter, heat, and health care. There is no such program 
for water. I thank Senators Cardin and Wicker for introducing 
bipartisan and bicameral legislation last Congress that would 
pilot such a program and urge the Committee to create a program 
to solve this problem once and for all.
    RCAP works with communities and partners across the country 
to advocate for and generate economic opportunities for rural 
areas. The services provided through these programs deliver 
critical assistance in the small and disadvantaged communities 
where it is most needed.
    I thank the Committee for inviting me to testify today, and 
I look forward to working with you and your colleagues to 
ensure these important priorities are passed into law.
    Thank you.
    [The prepared statement of Mr. Ohle follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Carper. Mr. Ohle, thanks so much for batting 
cleanup for us.
    My staff has just given me--Senator Capito has just given 
me a list of order for questioning. I am listed first, and I am 
going to yield to you, and I will ask questions later.
    Senator Duckworth is next; Senator Lummis is next. Ben 
Cardin, I think, is going to join us by Webex, and Senator 
Inhofe, I think is going to take the hand off from Senator 
Capito. Also joining us by Webex is Senator Stabenow. It is a 
brave new world in terms of hearings, isn't it?
    All right, Senator Capito, are you going to yield to this 
guy from Oklahoma?
    Senator Capito. Yes. Thank you, Mr. Chairman. I yield my 
first place here, or second place, to Senator Inhofe.
    Senator Inhofe. Mr. Chairman, I appreciate it. Something 
happened that doesn't happen very often, and I want to 
compliment you and Ms. Capito on the fact that we have 
witnesses, all were really well informed and well qualified, 
and they all, each one, stayed within 5 minutes. That never 
happens.
    [Laughter.]
    Senator Inhofe. I just appreciate that very, very much.
    Ms. Chard, in your testimony, you note how the EPA should--
and I emphasize should--consider the size of water systems when 
establishing regulations. The reality is that additional 
regulations only create, often, unsustainable burdens on our 
small, rural, and disadvantaged systems as a result of 
financial limitations and geography.
    So Ms. Chard, should national regulations take into account 
the varying capabilities of the water systems, and are they 
doing that now?
    Ms. Chard. Thank you, Senator Inhofe. That is a tough one, 
for all of us. We don't want to establish a two or three tier 
protection level, the haves and the have nots, but we do have 
to recognize that small systems have a different capacity to 
comply.
    We have seen the disinfection byproducts rule. There was 
stage one, which applied to the larger systems and then brought 
in the smaller systems in stage two. That gave the smaller 
systems additional time to develop the expertise to obtain 
funding to try to install technologies. It is really important 
that we look at the development of cost effective and efficient 
technologies that small systems can one, afford, but two, have 
the technical capabilities to operate.
    We need to make sure that we are providing appropriate work 
force training and technical assistance training and sampling 
assistance training for the smaller, often very rural systems. 
We talk about the benefits of other programs, where we can come 
in through capacity development and work with those systems on 
their technical, financial, and managerial capabilities. Those 
take lesser funds to actually implement.
    But any time we see expanding regulatory provisions, we 
have to recognize that there are going to be struggles for 
small systems in order to comply, not only the cost, but the 
technical capabilities, as well.
    Senator Inhofe. So you think there is room for improvement?
    Ms. Chard. Oh, I definitely think there is room for 
improvement in the regulations. As somebody who is involved in 
writing them, I know we can do better. There is definitely room 
for improvement in operations. We can help systems get better 
trained. We can definitely improve the amount of funding that 
we dedicate to small systems.
    In Oklahoma, we are very fortunate that we are able to work 
with our tribal partners and other non-traditional partners in 
solving region-wide drinking water and wastewater programs and 
problems.
    Senator Inhofe. On regulations, I agree with you. There are 
some problems. I remember, last March, in response to the 
coronavirus pandemic, States issued stay at home orders and 
distance guidelines and all the guidelines that we are so 
familiar with now. During that time, last March, due to the 
coronavirus, the EPA announced it temporarily--and I stress 
temporarily--because that is what they did, they relaxed 
certain penalties for non-compliance of routine environmental 
reporting and monitored requirements.
    Because of that, Gina McCarthy, who is now President 
Biden's domestic climate czar, called the move an open license 
to pollute. I don't think it did, and maybe we learned some 
lessons from that action.
    I would like to get your response. Did you observe any 
increased water pollution in Oklahoma as a result of relaxing 
some of these regulations?
    Ms. Chard. In Oklahoma, the answer is a resounding no, we 
did not. The State actually took a similar action prior to the 
EPA action. Really what it did was not change compliance and 
not change requirements, it just added a mitigating factor that 
could be considered if a penalty were assessed.
    In Oklahoma, we had four or five requests for mitigation or 
to consider COVID-19 because of a violation. But the violations 
were not actually permit limit violations or National Drinking 
Water Standard violations. It was, samples were not analyzed 
within the holding time, or were not collected in time.
    That was a result of people being ill and being unable to 
collect those samples, or in many cases, outside the system's 
control. It was at a laboratory facility. So we were able to 
work with those systems, and we did not see significant issues.
    Senator Inhofe. I remember making some phone calls at that 
time and observing that we did a good, by and large, States do 
a great job at regulation. That is a good point.
    Thank you, Mr. Chair.
    Senator Carper. You bet. Thank you very much for asking 
those questions, and Senator Capito, thank you for yielding.
    I think we are going to bounce over to Senator Duckworth 
next, and thank you for your leadership on these issues and 
leading our Subcommittee that has jurisdiction over many of 
them. Thank you very, very much. You are recognized.
    Senator Duckworth. Thank you, Mr. Chairman.
    This question is for all the witnesses. During the COVID-19 
pandemic, many people experienced total water shutoff as they 
struggled to pay the bills. To protect families during a deadly 
public health crisis, Illinois and other States took the lead 
in implementing shutoff moratoriums to prevent water utilities 
from shutting off water service. This action was absolutely 
essential in protecting households in the near term.
    However, over the long term, additional action will be 
required to protect consumers from sharp rate hikes down the 
road and to ensure water systems have sufficient capital for 
modernization projects.
    I don't want to downplay the magnitude of the challenges 
that we face. The total water debt resulting from the pandemic 
easily exceeds a billion dollars nationwide.
    However, I am confident that our Nation can avert a 
national water debt crisis if we start taking action now. As 
every witness is familiar with the daunting challenge of 
balancing water affordability and upgrades, my question is for 
the entire panel. What actions should we take at the Federal, 
State, and local levels to protect consumers while also 
ensuring utilities have sufficient capital to make long term 
investments in water systems infrastructure? Perhaps you can 
answer in the order that you made your statements.
    Thank you.
    Ms. Powell. Thank you for the question, Senator Duckworth.
    I do want to start out by saying that I started--when the 
pandemic was declared, I was commissioner in Atlanta and then 
transitioned to DC Water in May. In both cases, we not only 
stopped shutting off water, but we reconnected customers that 
were in shutoff status at DC Water, restoring service to more 
than 300 customers.
    To your question, I think what we are trying to do 
specifically at DC Water is make sure that all of our customers 
who have fallen into arrears are connected with every dollar of 
assistance that is available. That includes assistance under 
our customer assistance programs.
    We have just developed a new customer assistance program 
that is designed to help renters and multi-family units, and we 
are looking to develop another. Then we will be taking 
advantage of the funding that was included in the COVID relief 
package that will flow through HHS to provide some funding 
assistance as well.
    I just think that it is very important that not only do we 
have the money, particularly through the low income water 
assistance program, and we need to see more funding there, but 
not only do we have to have money to support customers that 
fall into arrears, but it is important for us to have funding 
and more funding in terms of grants for the utilities to do 
that critical infrastructure work that you spoke of. If we 
don't have more grant funding, specifically, then we are forced 
to have to pass on repayment of loans to our ratepayers, which 
exacerbates the issue that they have, the affordability issue 
they have.
    Senator Duckworth. Thank you.
    Ms. Chard.
    Ms. Chard. I can't disagree with anything that Ms. Powell 
had to say. It is a big issue, critically important. It is 
vital if we can help our systems with recovering these costs. 
They are still paying to treat water and deliver water to 
individuals, so anything that Congress can do to help support 
those systems, that would be fantastic. They are accruing debt 
at a fast rate, and they are not able to recover that debt, and 
then that, in turn creates a problem for them in doing routine 
operation and maintenance, and each expansion or major 
construction.
    Senator Duckworth. Thank you.
    Mr. Ohle, do you want to speak to that, as well as the 
grants versus loans from the Federal Government? Thank you.
    Mr. Ohle. I would love to. Thank you very much, Senator 
Duckworth. I think there are two things we need to do when 
considering these issues.
    First and foremost is address those low income individuals 
and families that can't afford these bills. So the first piece 
is really that low income assistance program that we have 
talked about that you have heard several of us mention. There 
is actually an $8 billion need for that program. So we have got 
a great start in putting that program in place, but there is 
significant additional funding that is needed.
    There is also a need to help utilities and systems at the 
same time, just as you heard Ms. Powell talk about. There was a 
program called the Emergency Assistance for Rural Water Systems 
Act that was a potential opportunity to do just that. What it 
does is it addresses the O&M, the operations and maintenance 
costs that systems have been undergoing over the past year that 
they haven't been able to recoup through bills and ratepayers. 
It addresses the long term needs of these communities and 
certainly of those utilities, but also then ensures that long 
term infrastructure bills aren't a future deficit onto these 
communities and to those families.
    Senator Duckworth. Thank you.
    I yield back, Mr. Chairman.
    Senator Carper. Thanks so much.
    Senator Capito has another hearing to get to, so she is 
going to go next, and she will be followed by--this is the 
current order, it could always change, given today what has 
happened already, it will probably change. Senator Capito, 
followed by Senator Cardin, followed by Senator Boozman, who is 
here.
    Welcome, John.
    Followed by Senator Stabenow on Webex.
    Senator Capito, please proceed.
    Senator Capito. Thank you, Mr. Chairman.
    I would like to direct my first question to Mr. McNulty. In 
everybody's testimony, they talked about work force development 
and the needs of the systems to replenish their work force. I 
worked, in 2018, with Senator Booker on this Committee to draft 
and enact our legislation, actually establishing an EPA work 
force development that is in high demand, I understand. I 
understand it is oversubscribed. Ms. Powell thanked me here in 
person.
    Mr. McNulty, if you could, what are the chief challenges 
facing your work force? Is it retirement, retention, lack of 
interest, lack of qualified candidates? Can you expound on that 
for me, please?
    Mr. McNulty. Senator, I think the best answer would be D, 
all of the above. Retirements are certainly upon us. It is 
tough to recruit good candidates. So we do struggle with that 
here, especially in West Virginia.
    Let's not forget that many rural communities are still 
dealing with the opioid crisis. It is sometimes difficult to 
find good, qualified candidates that don't have substance abuse 
issues. So we appreciate all of Congress's work to help with 
that problem.
    But also we are working toward here in West Virginia the 
apprenticeship program. I think that it is going to be a very 
successful program. I know that West Virginia Rural Water is 
getting that kickstarted, and we really look forward to the 
availability of bringing young folks in to learn the business 
and to become qualified operators.
    Senator Capito. Thank you.
    Ms. Powell, did you want to speak to that?
    Ms. Powell. I certainly can, Senator Capito, and I agree 
with my colleague. It is all of the above, and we have to, as a 
water sector, do a better job about promoting the opportunities 
that exist to work in the water sector. I think we employ every 
type of career field there is, from finance to scientists to 
the boots on the ground workers. So we have to do a better job 
of getting the messages out.
    But we have also, as a water sector, started to pursue 
different means of recruiting talent. If the talent doesn't 
come to you, you go out and get it. That is certainly what we 
did in Atlanta when we formed a partnership with the Department 
of Corrections to put folks that were re-entering society, 
fathers, put them to work as watershed trainees, who then 
eventually became full time employees of the utility. We were 
able to do two co-courses [indiscernible].
    We also formed a partnership for youth, and we also formed 
a partnership focused on women who were victims of trafficking. 
So I think those types of programs, which are supported by the 
grant funding program that you champion, are important because 
it is introducing folks that wouldn't otherwise look at the 
sector to opportunities for good career paths, low barrier to 
entry jobs, and stable work with good wages.
    Senator Capito. All right, thank you.
    On the resiliency and data availability, actually on the 
data availability, I mentioned in my opening statement that 
sometimes the data, we want to pinpoint the help where the need 
is most apparent.
    Mr. McNulty, I am going to ask two questions, but you can 
pick. Can you provide your perspective on the best way to 
ensure that this Committee has a working understanding of the 
current, existing challenges and associated needs facing your 
systems? Also, how would you propose that we would improve the 
data available to EPA, Congress, and other stakeholders to make 
sure that we are targeting and using that for our policy 
decisions?
    Mr. McNulty. I believe the best way to learn about the 
challenges that we are facing is boots on the ground, Senator. 
I think visits out to the utilities are critical. I know that 
you have been all around West Virginia, you have done that. You 
have been to these communities and have seen first hand. I 
think that the more, the better, in that respect, and that is 
how Congress is really going to learn what those needs are.
    I can't stress enough when we talk about need, when I 
mentioned a moment ago about debt forgiveness. Debt is one of 
the heaviest burdens that utilities face. When we talk about 
the pandemic and the shutoffs and those revenue drops, the debt 
services didn't stop. Those payments were still due, so I think 
that, again, if we get out and visit and learn and talk to 
those water and wastewater professionals, that is the best way 
to understand the need.
    Senator Capito. Thank you.
    Thank you, Mr. Chair.
    Senator Carper. Senator Capito, thanks very much, and 
thanks so much for holding the fort down until I could get 
here. See you later on the floor.
    We have a vote that has been announced. I think it is going 
to start in about 10 minutes. What I would like to do is go 
ahead and complete hearing from our witnesses and the question 
and answer period that we are doing now.
    In the queue, we have Senator Cardin, I think by Webex. Ben 
is the Chairman of the Transportation and Infrastructure 
Subcommittee. He will be followed by Senator Boozman, and then 
by Webex, Senator Stabenow.
    So, Senator Cardin, Senator Boozman, Senator Stabenow. If 
no one else has shown up, then I will ask some questions 
myself.
    Senator Cardin.
    Senator Cardin. Mr. Chairman, thank you very much. I 
appreciate this hearing. This is critically important.
    Mr. Ohle, I want to follow up on your point. Thank you for 
mentioning the legislation that Senator Wicker and I have 
filed, bipartisan legislation that deals with affordability. It 
is a double edged problem, because generally, in poorer 
neighborhoods, the rates are just not an option to increase the 
rate cost in order to deal with the infrastructure needs.
    So you have the issue of affordability because of the 
income level of the person who has to pay the water bill, and 
then you have the community's capacity in order to do the 
infrastructure to bring the water up to the quality that is 
needed. Then, you put on top of that that the WIFIA Program and 
the State Revolving Fund Programs are oversubscribed, and 
additional debt is not always an option, because again, it 
comes back on the rate system itself.
    Can you just share with us your thoughts? I appreciate the 
legislation you referred to as it deals with the consumer. But 
are there other areas that we can target the aid to deal with 
economic justice issues for underserved communities, so they 
can get safe drinking water?
    Mr. Ohle. Thank you very much for the question, Senator 
Cardin, and thank you for continuing to be a consummate 
champion of these issues.
    I think what you have hit on is incredibly important. 
Affordability is a big piece of this puzzle. It can't just be 
access. So we have to think about how do we ensure those most 
vulnerable populations have access, but have affordable access. 
Things like grants and forgivable loans through the SRF Program 
is a great way to do it, but we also need sustained and 
intentional investment through those grant and forgivable loan 
programs.
    We need to have the Federal Government play a larger role 
in financing these systems through those grants and loan 
programs, and we need to make sure that, whether it is EPA or 
USDA or other funders, that they can find ways to target those 
most vulnerable populations, those that need it the most, for 
those grants and forgivable loan programs.
    Senator Cardin. I appreciate that. I think we had a hearing 
a couple years ago where the Mayor of Baltimore testified 
before our Committee and raised these issues that we have to 
look at new ways of trying to provide funding. These existing 
programs work, but only to a point.
    As we are talking about building back better, we are 
talking about being fair to communities, we are talking about 
economic and environmental justice to communities. I would hope 
this Committee would take a look at opportunities at which we 
could expand the capacities in underserved communities. It is 
the same communities that have lead issues that we have to deal 
with, and how are we going to remedy the lead problems.
    Senator Lummis mentioned the challenges in Wyoming in 
dealing with the weather conditions that she confronted. Well, 
we have adaptation issues. We have weather, climate issues that 
we have to deal with. You put that all together, and so many 
communities are just not capable of dealing with these issues 
without significant transformational change at the national 
level.
    So I hope as we go through this debate in our Committee 
that our experts that are here today can help us in a creative 
way as to how we can make a consequential difference. The 
Chairman cited, and several have cited the current status of 
water infrastructure in America. It is certainly not at the 
level I talk about in my own city of Baltimore that had the 
best water infrastructure in the world. The problem was, that 
was 100 years ago, literally. Not too long ago, we found some 
pipes that were laid 100 years ago still in use in Baltimore.
    So it really does require our attention and an effort to 
look at ways that we can make a transformational change. I 
would just hope that you would share those thoughts with the 
Committee. I know our Chairman and Ranking Member are very much 
interested in making a major difference. We want to work in a 
bipartisan manner to get that done.
    I hope part of that will be the affordability of the 
customers, the legislation that I offered with Senator Wicker. 
But I think we also have to deal with the realities of how do 
we deal with adaptation, how do we deal with climate change, 
how do we deal with getting lead out of our system and 
providing ways that we can modernize our water infrastructure 
in this country.
    So, Mr. Chairman, I look forward to working with you and 
other members of our Committee on this challenge, and I hope 
that we can find some creative ways to make a difference in the 
status of our wastewater and clean water in America.
    Thank you, Mr. Chairman.
    Senator Carper. Senator Cardin, thanks. Thanks for your 
leadership on these issues and other infrastructure issues, and 
God knows how many others. Thank you, Ben.
    Senator Lummis succeeds Mike Enzi from Wyoming. I think, 
when she got here a couple of months ago, I shared with her 
this story. I was brand new in the Senate, I was presiding over 
the Senate, and the fellow who was out in the audience was Mike 
Enzi, he got recognized on the Republican side.
    He ended up talking about why they had so much done on the 
Health, Education, Labor, and Pension Committee where he was a 
senior Republican, maybe one of the most conservative 
Republicans in the Senate, and the senior Democrat was Ted 
Kennedy.
    Senator Lummis. Yes.
    Senator Carper. He spoke about the 80-20 rule, why they 
were able to get so much done on a committee with one of the 
most liberal Democrats leading and one of the most conservative 
Republicans leading. I didn't know what the 80-20 rule was. I 
asked one of the pages to, after he finished speaking, to come 
up to where I was presiding, while someone else spoke, to 
explain to me, what is the 80-20 rule?
    And he said, the 80-20 rule goes like this. He said, the 
reason why Ted Kennedy and I get so much done on the Health, 
Education, Labor, and Pension Committee is because we believe 
in the 80-20 rule. I said, well, what is it? And he said, we 
agree on 80 percent of the stuff. We disagree on 20 percent of 
the stuff, and we focus on the 80 percent that we agree on.
    One of the great things about this Committee, and I told 
Senator Lummis how happy I am that she chose to become a 
member, is we abide by the 80-20 rule. We agree on about 80 
percent of the stuff, maybe disagree on the 20 percent, and we 
focus on the 80 percent that we agree on.
    That is what we are doing this morning with water, 
wastewater. We are doing a similar kind of thing with surface 
transportation, and it is a lot of fun. It is also something 
that is just hugely important for our country right now.
    Senator Lummis, we are delighted you are on the Committee. 
I am happy to recognize you to speak. Thank you.
    Senator Lummis. Thank you so much, Mr. Chairman, and this 
is certainly a topic that is probably more than 80 percent 
agreement. These systems are critical to the lives of everyday 
Americans, to all of us. So this topic is both extremely timely 
and extremely important to the people that we work for here in 
Washington.
    So I very much appreciate your choice to lead off with this 
topic and Senator Duckworth's choice to lead off with this 
topic. This is very much appreciated by my State of Wyoming. I 
too hope the 80-20 rule will continue to apply during the 
course of the next couple of years. I can assure you that that 
is my goal, as well.
    My first question is for Mr. Ohle. I am interested in how 
we can make sure that the moneys that are coming from the 
Federal Government are getting to on the ground assistance, 
also technical assistance, and not going to academics or 
regulators. Because regardless of how many regulations we pass, 
or how many studies there are, what really gets clean water to 
people are the boots on the ground workers that install and 
maintain systems and understand how to do it.
    Mr. Ohle, how can we make sure that the money that Congress 
is appropriating for these programs is going directly to boots 
on the ground work on these systems?
    Mr. Ohle. Thank you very much for the question, Senator 
Lummis, and thank you for your continued support.
    I think technical assistance programs are the key to all of 
these programs, to helping communities, especially the most 
vulnerable communities get access to funding. So EPA has 
existing technical assistance programs. Ones like we operate, 
which fall underneath your national priority areas. Also, there 
have been several new technical assistance programs created.
    So ensuring that you are getting qualified, non-profit 
organizations that are focused on technical assistance that 
have long term trusted relationships, that, I think, is the 
most critical, especially in small communities to ensure that 
you have got folks that have built in relationships, have the 
expertise, and then obviously are helping those systems access 
additional resources across the Federal Government.
    Senator Lummis. Mr. McNulty, could you weigh in on this 
topic, as well?
    Mr. McNulty. Yes, ma'am. I certainly agree. I believe that 
the USDA Circuit Rider Program is one of the very best programs 
in this country, and I think you are on the right track here, 
with getting it out in technical assistance to the communities.
    Senator Lummis. Have you seen that Circuit Rider Program 
work, regardless of who is in the White House?
    Mr. McNulty. Yes, I have. It is always a favorite program, 
I think, of Congress.
    Senator Lummis. Well, it is certainly reassuring to hear 
you say that.
    The next question I have is for any one of you who cares to 
answer. Do you have any ideas about creative advancements in 
water management that are happening, whether it is engineering 
or financing, or otherwise, that Congress should know about, 
and either play a role in or intentionally not play a role in?
    Ms. Chard. This is Shellie Chard. I will jump in to say, 
Oklahoma has been very successful, and we have created what is 
called the Oklahoma Strategic Alliance. It is made up of our 
State funding agency; it is made up of technical assistance 
providers, and the DEQ drinking water and wastewater staff, and 
capacity development trainers. That is a program that is 
allowed us to work together, and we bring together people from 
all different backgrounds.
    They can go out and actually provide some of that boots on 
the ground coordination and collaboration between all of the 
groups. They have somebody they can reach out to, if it is 
something new or unusual we haven't seen before. Then we are 
able to apply those lessons learned to many other systems. That 
has kind of been a lower capital investment that has resulted 
in significant water system operation improvements.
    Again, this is working primarily with very small and rural 
systems. So I think that is a great program, and it is a great 
example, but we would be happy to share with anyone that wanted 
to talk with us about that.
    Senator Lummis. Well, I really appreciate that, Ms. Chard. 
Thank you for your response, and we will look into that 
further. Those kinds of State programs with States being, 
really, the incubators of innovation with regard to either 
implementation of these programs, or planning ahead for the 
future, is deeply appreciated.
    Thank you, Mr. Chairman, I yield back.
    Senator Carper. Thank you, Senator.
    I think we are going to bounce back up the list here, and 
go to Senator Markey.
    I think you are next.
    Senator Markey is recognized, please.
    Let me just run down the list if I can. We have a vote 
that, I think, is just beginning right now, the first of two 
votes. It will be a 30 minute vote, and we will have to figure 
out how we are going to make this work. I think we can.
    There will be Senator Markey, followed by Senator Boozman 
on Webex; Senator Stabenow, and then we are going to work in 
Senator Kelly and Senator Padilla into this.
    I am now going to recognize that one or both of you go vote 
right now. One or both of you, go vote right now, and come 
right back, so we can keep this running, OK? If you could do 
that, just expeditiously, though, all right? Thank you.
    All right. Andele, andele, as we say in Delaware.
    [Laughter.]
    Senator Carper. OK. I think Ed Markey is next.
    Senator Markey.
    Senator Markey. OK. Thank you, Mr. Chairman, very much, and 
thanks to the panelists.
    Communities of color are 40 percent more likely to have 
drinking water systems that consistently fail to meet safety 
standards in our country. To address that clog in the system 
last year, I introduced the CLEAR Act legislation to provide 
more support for disadvantaged communities with additional 
financial assistance and new provisions allowing communities to 
purchase filters or hire technical expertise.
    I was glad to see these provisions, Mr. Chairman, were 
included in the Drinking Water Infrastructure Act, which was 
successfully reported out of our Committee last Congress. I am 
going to be working hard to include them once again in any 
drinking water package that is eventually passed into law.
    Mr. Ohle, do you agree that more funding for the assistance 
for small and disadvantaged communities program would help 
address inequities, improve public health, and increase 
drinking water quality nationwide?
    Mr. Ohle. Thank you, Senator Markey, and absolutely, I 
agree that it would. I think it is an incredibly important 
issue for us to be addressing. Certainly, ensuring the most 
vulnerable populations across the country, including indigenous 
populations and communities of color is incredibly important, 
and I think also a very big piece to the small system 
conversation, as well.
    Senator Markey. Thank you.
    Ms. Chard, do you agree that it is important for small and 
disadvantaged communities to be able to use funds for filters 
to improve water quality at point of use?
    Ms. Chard. I think it all depends on the point of use, how 
it is set up, the kind of filters. There are a lot of them out 
there. It is important; they do play a role.
    I would be opposed to widespread use, where a utility would 
have to be the owner, the operator to maintain these devices. 
We have found that citizens are not excited about having either 
rural water, district, or municipal staff or State staff come 
into their homes to take samples or to maintain equipment.
    So I think it is important to strike a balance of using 
those filters in a responsible way, so that we can protect 
public health in an additional manner. It is definitely a tool 
in our toolbox that we should keep out there and make 
available. I think we need to be careful how we structure.
    Senator Markey. Thank you.
    Well, Mr. Ohle, do you agree that small and disadvantaged 
communities can benefit from contracting with non-profits for 
technical assistance to better map and manage their drinking 
water assets?
    Mr. Ohle. I think it is incredibly important. Many of these 
systems don't have the expertise or even the technology in 
house. We run a program specifically focused on mapping of 
systems through GIS, and these systems need those services both 
to understand their current infrastructure, but also in case of 
an emergency, how to access the system, how to make sure that 
it is continued to be operated.
    Senator Markey. Quickly, to conclude, millions of gallons 
of human and industrial toxic waste goes into our rivers every 
single year, and people deserve to know when our water systems 
are compromised, and our water systems warrant Federal funding 
to alert them. Last Congress, I fought for a change to allow 
municipalities to use sewer overflow funding for the 
development of public warning systems.
    Ms. Powell, do you agree that it is important to allow 
water systems to use funding to notify the public on combined 
sewage overflows?
    Ms. Powell. Thank you for the question, Senator Markey. I 
do think that CSO control requires massive investments, like 
those that we are making in DC with the DC Clean Rivers 
Program. Monitoring and notification can be part of those 
costs. So depending on the community's needs, I think it is 
worthy of being eligible for that funding, yes.
    Senator Markey. Thank you. I agree with you 100 percent. 
The more notification people get is the more they can protect 
their own family, so thank you, Ms. Powell.
    Thank you, Mr. Chairman for the recognition.
    Senator Carper. Senator Markey, great to see you. Thanks 
for joining us, and I believe Senator Stabenow is next.
    Senator Stabenow, are you able to join us on Webex?
    Senator Stabenow. Yes, sir, I am.
    Senator Carper. Senator Stabenow. All right.
    Senator Stabenow. It is wonderful to be with you on such an 
important topic, and I couldn't agree more. I hope this beats 
the 80-20 rule, because we all should, I know, care deeply 
about the quality of our water systems and sewer systems and so 
on. So I appreciate you and our Ranking Member having this very 
important hearing today.
    There is perhaps no better example of the importance of 
safe public drinking water to public health than what happened 
in Flint, the lead crisis in Flint, that our families are still 
living through.
    I want to once again thank Senator Inhofe, when he was 
Chairman of this Committee, for working with me in a wonderful, 
bipartisan way to be able to address this crisis for the people 
of Flint.
    Thankfully, the city has replaced almost all the lead 
service lines now in the city, but water challenges remain, and 
in communities all across Michigan, they remain.
    In 2018, the State of Michigan required all public water 
systems to begin replacing all lead service lines, starting in 
January of this year, and the process will occur over a 20 year 
period. Sounds good, but while the final count on total lead 
lines across the State isn't exactly known, the estimates are 
that there are as many as 500,000 in Michigan alone, which 
could cost as much as $2.5 billion to replace.
    So there has been a lot of discussion today, important 
questions asked about how do we deal with this, how do we 
navigate the challenges, what happens when the communities that 
have the biggest backlogs that need the most upgrades and fixes 
are least equipped financially to pay for them. I will not ask 
that question, but just lend myself, my voice, to the fact that 
it is incredibly important that we address that issue.
    I would like to ask Ms. Chard, in Michigan and in States 
across the Great Lakes, combined sewer overflow systems result 
in billions of gallons of untreated or partially treated water 
being released during rainstorms. Contamination of our 
waterways poses a serious threat to the health of our 
communities. I see this and hear from local elected officials 
all the time.
    As a result of the climate crisis, we know that extreme 
weather and precipitation events are the new normal, 
unfortunately, which is creating new stressors on our water and 
our wastewater systems.
    Ms. Chard, in your testimony, you speak at length about 
this new normal. Do you have suggestions on how we can better 
embed climate resiliency into our wastewater systems, 
particularly to address combined sewer overflows?
    Ms. Chard. Thank you very much. First, in the interest of 
full disclosure, I am very fortunate in my State. Oklahoma does 
not have combined sewers. Those have been outlawed since 
statehood, one of the benefits of being a young State.
    But the resiliency and what can we do about the significant 
weather events, it is so critically important. What we do on 
the wastewater side definitely impacts our source water for our 
drinking water and impacts the treatment needed, our economic 
development, and so many things.
    States like Oklahoma have included requirements in our 
regulations for redundancy of equipment so that plants are 
really, if you are only running the minimum treatment, they are 
overbuilt, because we want them to be able to treat in times of 
emergency. But that does come at a cost, and so we have to 
balance that.
    We look at including redundant power generators, different 
sources of power coming into a facility. We can increase those 
kinds of provisions, and that can help us move forward and be 
more protected and keep our systems operating in times of 
emergency. Thank you.
    Senator Stabenow. Thank you very much.
    Mr. Chairman, in the interest of time, because I know there 
is a vote going on and others wish to ask questions, I just 
look forward to working with you. This is a really, really 
important thing for us to tackle and to address, so thank you.
    Senator Carper. Senator Stabenow, I learned earlier this 
week that you have been named the recipient of the Bryce Harlow 
Award, which really suggests you are the epitome of the 80-20 
rule. Congratulations on being named. I look forward to being 
there when you are honored in person. Thank you.
    Senator Stabenow. Thank you.
    Senator Carper. OK. Next, we have Senator Kelly. If you 
would like to go forward, you are recognized, next followed by 
Senator Wicker, Senator Sullivan, and Senator Padilla.
    Senator Padilla, you may want to consider going and voting 
right now, and just coming back. You may want to consider that.
    Senator Kelly. Well, thank you, Mr. Chairman. I am going to 
be brief, because I have to go preside here in just a second.
    I want to start out with Mr. Ohle, and start out by asking 
you about drinking water infrastructure on tribal lands. 
Arizona is home to 22 federally recognized Tribes, and as you 
know, too many tribal communities still lack access to reliable 
drinking water infrastructure. The current drought conditions 
are only making matters worse. We have to do more to support 
the drinking water infrastructure in our tribal communities.
    That is why I urged Chairman Carper and Ranking Member 
Capito to ensure that Arizona's tribal communities were 
eligible for the EPA's Indian Reservation Drinking Water 
Program. I am pleased to see that the upcoming water 
infrastructure legislation will include this request, which is 
a big step.
    Mr. Ohle, if this legislation is enacted, how could this 
funding help Tribes improve their drinking water systems? What 
more can this Committee do to ensure that tribal communities 
have safe drinking water and functioning wastewater systems?
    Mr. Ohle. Thank you very much for the question, Senator 
Kelly. This is an incredibly important issue across the 
country. EPA's latest estimates say that there is a $3.8 
billion need in drinking water infrastructure across Tribes 
across the country.
    What I would say is, first and foremost is the funding that 
comes with it, that hopefully is in grant dollars, so that 
these communities can access them. Maybe even more importantly, 
the technical assistance that comes alongside that, to work 
directly with Tribes so they can work through the paperwork and 
all of the necessary items to actually access the funding 
itself.
    One thing we know is capacity of Tribes, in some cases, is 
very low. So ensuring that there is qualified technical 
assistance providers to assist those Tribes in accessing the 
funding is critically important.
    Senator Kelly. Well, thank you, Mr. Ohle, and I yield back 
the remainder of my time.
    Senator Carper. All right. Senator Kelly, you better go 
preside. Go get them.
    I think next on our list right now is Senator Wicker.
    Senator Wicker, are you able to join us remotely?
    Senator Wicker. Absolutely. Thank you very much, Mr. 
Chairman. Can you hear me all right?
    Senator Carper. All right. Senator Wicker, welcome. You are 
loud and clear.
    Senator Wicker. I want to ask Mr. Ohle and Mr. McNulty 
about optional set asides. Last year, the Committee unanimously 
approved America's Water Infrastructure Act. This bill included 
a provision that I championed, along with others, to allow 
States to set aside up to 2 percent of their Clean Water State 
Revolving Funds to provide technical assistance to small, 
rural, and tribal publicly owned treatment works.
    Can each of you, Mr. Ohle and Mr. McNulty, comment about 
how optional set asides within the State Revolving Funds 
provide flexibility and the extent to which they are helpful?
    Mr. Ohle. Thank you, Senator Wicker. Yes, we fully support 
the 2 percent set aside. We think it is a really vitally 
important piece to ensuring that small communities get access 
to that technical assistance.
    What we see through that is that technical assistance 
provides work on technical, managerial, and financial aspects 
of water system management. It ensures that those systems are 
sustainable in the long run, that they have the financial 
resources to access. Also, the set aside in particular sends 
just a critically important note to States about how important 
this technical assistance program is.
    Mr. McNulty. Senator, that is an incredibly successful 
program here in West Virginia. We are already using it; we have 
been using it for years, and we just applaud the effort to 
continue to do that and even increase that funding.
    Senator Wicker. OK. Mr. McNulty, you stay on the line here, 
because I want to give everybody an opportunity to talk about 
this if you want to.
    Do we have enough trained personnel? The Labor Department 
last year recognized my State of Mississippi for the 
apprenticeship program. We are training five apprentices.
    How does a shortage of trained water operators affect a 
system? Has this been a problem for you in West Virginia, Mr. 
McNulty? Then we will ask the other panelists to answer in 
turn.
    Mr. McNulty. Yes, it is a big problem. With the retirements 
that are going on right now that we are seeing, especially in 
our smaller communities, they are having a hard time attracting 
operators, especially in southern West Virginia, in the coal 
fields, and so yes, it is a very, very important program to 
continue with.
    Senator Wicker. Mr. Ohle, and others.
    Mr. Ohle. Yes, Senator Wicker. The work force issues that 
are confronting small and rural communities is really 
important. We have a silver tsunami coming over the next decade 
of retirements, and so ensuring that we both build a pipeline 
of new operators and folks in the water sector is important. 
But also ensuring that we have good, sustainable jobs for those 
folks that we encourage veterans and other folks that would be 
really great transitions into the water industry is important. 
Ensuring that we attract young people into the industry is 
another key component to this.
    Senator Wicker. Anyone else?
    Ms. Powell. Yes, Senator Wicker. This is Kishia Powell from 
DC.
    I would agree. I think that it has been difficult to 
attract replacement workers to the water sector, which makes it 
that much more critical that we focus on this issue, and that 
we put funding behind training a work force so that our 
utilities will have sustainable operations. In DC, our CEO, 
David Gadis, has also implemented work force apprenticeship 
programs to make sure that where we have a void, we are trying 
to use this as an opportunity to train a new work force, 
potentially folks that are at risk that might not otherwise 
look at the water sector.
    Ms. Chard. This is Shellie Chard, and if I may, I will go 
with yes to everything everyone has said already. I would also 
highlight that there are some States that are reaching out 
through community colleges or vocational schools and trying to 
increase the level of training and working with departments of 
corrections in helping to prepare inmates that are about to 
come back into society get some of that training. We are also 
seeing some of our retiring operators staying on to assist 
other systems or becoming circuit rider technical assistance 
providers, which is also a program that is very helpful.
    Senator Wicker. Ms. Chard, how important are technical 
assistance grants?
    Ms. Chard. Incredibly important. We know that through 
training that can be provided, we can extend the lifespan of 
equipment because it is being properly maintained and operated. 
Technical assistance providers can also help us make sure we do 
have adequately trained operators. They can help us with the 
emergency response, which is super important.
    Senator Wicker. Thank you very much, and thank you, Mr. 
Chairman.
    Senator Carper. Senator Wicker, thanks for joining us 
remotely.
    We have been rejoined by Senator Sullivan, and he is 
recognized next, and he will be followed by Senator Padilla.
    Thank you, Senator Padilla, for your patience today as we 
try to make all this work.
    Senator Sullivan, please proceed.
    Senator Sullivan. Thank you, Mr. Chairman.
    I want to talk to the witnesses, really all of you, on a 
topic that I think should garner really strong bipartisan 
support, and that is the issue of communities that are truly 
underserved. By this, I mean they don't have any water and 
sewer. They don't have flush toilets. They don't have running 
water. We have that in America.
    Unfortunately, we have a lot of that in Alaska. I think it 
is an issue that we just, particularly after the pandemic, when 
communities are told, you need to wash your hands five times a 
day, and people don't have running water, it is imperative that 
we address it. This has been a big issue.
    Mr. Chairman, I appreciate your help on this issue in this 
Committee, but we have to do more. These are, by the way, in my 
State, some of the most patriotic communities in the country, 
with more veterans in these communities that you can believe.
    So Mr. Ohle, Mr. McNulty, other members, how do we get to 
this issue? It frustrates me when I hear about communities; we 
had a big debate on Flint, Michigan. That was obviously a 
horrible issue.
    But the discussion there was how do we deal with aging 
infrastructure. I think there is an even more important issue: 
How do we deal with communities that have no infrastructure, 
zero, zilch? So, any thoughts on that, how we can take care of 
these people first before we look at upgrading systems?
    There are Americans, thousands in my State, who have no 
running water and no flush toilets. They live like they are in 
a third world, and they have diseases and health challenges 
that reflect that. How do we put an end to this?
    Mr. Ohle, why don't you start?
    Mr. Ohle. Senator Sullivan, thank you very much for the 
question. I have been up in Alaska and seen some of the 
communities that you are referencing, and you are right. We 
need to focus specifically on those communities where there is 
no infrastructure.
    I would say, first and foremost, we need to both ensure 
there is funding there, but technical assistance is really 
tailored to communities that can be culturally appropriate for 
Alaska Native communities or other indigenous communities that 
understand the complex issues that you are dealing with in 
Alaska and other really remote areas of the country, to ensure 
that whatever infrastructure we are able to put in place works 
in that environment and works for that community, and also, 
obviously, is affordable in the way that it is implemented.
    Senator Sullivan. Other panelists.
    Mr. McNulty, do you have a view on this?
    Mr. McNulty. I certainly agree with what Mr. Ohle has said. 
I think we are going to have to be creative. Centralized 
systems aren't always going to be the best option. We will have 
to look at more community specific systems, perhaps, that would 
be managed under an umbrella of a larger utility. I think that 
is one way that we can assist communities without the 
population density to have a large, centralized system or to 
transport water long distances, or wastewater.
    Senator Sullivan. Let me dive into that a little bit more, 
and the other panelists, I welcome your views on this, too. It 
is not just money, although money matters in this situation, 
and to me, again, we have this euphemism in Alaska we call 
``honey buckets.'' It is not sweet, as you would imagine; it is 
the opposite, where people literally have to bring their human 
waste out of their house and dump it into a lagoon. That is 
America. It shouldn't happen. It shouldn't happen.
    How do we design systems in communities like this, where if 
we have the money to set them up, we are able to maintain them 
in a way that is more of a simplistic design that is not so 
complicated that it breaks down frequently, and other 
challenges we have in Alaska? I will just open that up to any 
of the panelists.
    Ms. Chard. This is Shellie Chard. I will start, and just 
say, we have to be creative. We have to use the tools we have, 
and sometimes we need to go find new tools.
    An area in Oklahoma that I am very proud of, we have a 
funding agency coordination team. It involves all of the 
Federal agencies that have funding, it involves all the State 
agencies that have funding, and it involves our tribal 
partners, which we have 39 recognized Tribes in Oklahoma. We 
work with them; we bring in community leaders. We work with 
them to form a rural water district or rural sewer district if 
that is appropriate.
    We work through the various funding, and we look at low 
technology that they can actually operate, that you don't need 
experts coming in and a lot of chemicals being shipped in, 
things that we can do to get them on a path to sanitation that 
most of us take for granted.
    Senator Sullivan. Thank you, Mr. Chairman.
    This is an issue I think we need to work together on in a 
bipartisan way. No American citizen should live in communities 
that have none of this that most Americans take for granted.
    Senator Duckworth [presiding]. Thank you.
    The man who just gave a wonderful maiden speech, I am so 
fortunate to have been on the floor when he did, the Senator 
from California, Senator Padilla.
    Senator Padilla. Thank you, Madam Chair, and I appreciate 
your being the presenting officer during that time. So we are 
bonded forever now.
    Just a quick comment before I raise a couple of questions 
and issues on the prior Senator's line of questioning. I 
couldn't agree more, but I also would heed caution for this 
Committee to make the false choice between better serving 
underserved communities versus serving unserved communities 
when it comes to water infrastructure.
    I don't think we have to make a choice. We have to do both, 
and ultimately, it is a question of resources and funding, 
which is a topic that I will get to in my couple of questions 
here, with limited time.
    First, I wanted to raise the issue of equity when it comes 
to water service, water infrastructure, and cost. Safe drinking 
water is clearly fundamental to public health. We would all 
agree about that, on a bipartisan basis.
    However, reliable access to safe, affordable drinking water 
is not yet a true reality, and I speak for the nearly 1 million 
Californians who cannot drink their tap water due to 
contamination. It is also not yet a reality for the one in 
eight California households who owe an estimated $1 billion in 
unpaid water bills.
    This water debt crisis is felt not just across California, 
but across the country, in both urban as well as rural 
communities with particular impacts on communities of color. 
According to California water boards, zip codes with higher 
percentages of Latino and Black populations have not just a 
higher percentage of households with some level of water debt, 
they have a higher average level of actual water debt and a 
higher percentage of households with very high levels of water 
debt, exceeding $600.
    The COVID-19 pandemic has further exacerbated water 
affordability challenges among low income households, And 
unlike other basic utilities, colleagues, we lack a national 
long term water affordability program. So, in my mind, to build 
back better for everyone, we must recognize that infrastructure 
is inequitable if it is not affordable.
    Ms. Powell, you noted in your testimony, and I will quote, 
that ``most utilities have raised rates for years to meet the 
compliance obligations of the Clean Water Act and the Safe 
Drinking Water Act. It must be recognized that if it is 
important for the Federal Government to regulate, it is equally 
important to provide funding to meet these increasingly 
stringent requirements. For the burden from this disparity is 
often borne by households of color and contributes to an 
increasingly acute environmental justice challenge.''
    Ms. Powell, what steps would you recommend that this 
Committee take to avoid widespread water shutoffs from 
occurring in all communities, frankly, as a result of the 
looming water debt crisis?
    After you speak, I am going to touch on historic levels of 
Federal funding for a minute.
    Ms. Powell. Yes, sir, and thank you, Senator Padilla, for 
the question.
    The grandmother on a fixed income that I referenced in my 
testimony was my own. In her senior years, she was faced with 
having to pay her other expenses, pay her water bill, or 
possibly lose her home. I don't think that in this country 
anyone's grandmother should be in that position.
    I think what you said about it not being an either-or 
proposition for unserved or underserved communities to have 
what they need to thrive on equal footing, to be able to take 
advantage of the economic benefits of infrastructure 
investments, that is something that should be available for all 
communities. I think what we need to do is make sure that there 
are higher levels of funding and maintain the Low Income Water 
Assistance Program that has been established during this 
pandemic, and make sure that it is funded so that it can assist 
more communities.
    Senator Padilla. Thank you. I just want to acknowledge, 
colleagues, for our consideration, that Federal funding for 
water systems has fallen by 77 percent in real terms since its 
peak in 1977, forcing local utilities to take on loans and 
raise bills in order to upgrade infrastructure, to comply with 
the safety standards that we now mandate, and to adapt to 
extreme weather conditions caused by climate change, like 
droughts and floods.
    In 1977, the Federal Government spent about $76.27 per 
person in 2014 dollars on water infrastructure. By 2014, that 
support fell to just $13.68 per person. So again, whether it is 
through the use of State Revolving Funds or other tools, we 
need to be an equal partner in funding and financing compliance 
and upgrades, not just regulating and applying mandates.
    Thank you, Madam Chair.
    Senator Duckworth. Thank you. We are going to have a second 
round of questions. Senator Carper will be headed back; he is 
voting right now. So I would like to begin the second round.
    As cofounder of the Senate's Environmental Justice Caucus, 
I commend the Biden administration for prioritizing 
environmental justice through executive action. Yet 
administrative action alone will not be enough. Environmental 
injustice has deep roots in our country, and upending decades 
of inequity will ultimately require Congress to act.
    As a country, we have allowed the vicious cycle of forcing 
communities of color and low income households to breathe 
dangerous air and drink toxic water to persist for far too 
long. That is why any effort to build back better must start 
with the roots, with the pipes that comprise our drinking water 
and wastewater systems.
    As we develop a comprehensive proposal to fix and improve 
our Nation's drinking water and wastewater systems, what 
programs or policies should we be prioritizing to make sure 
such investments also promote environmental justice?
    I would like to ask that of the full panel, as well, again, 
in the order that you presented. Thank you.
    Ms. Powell. Thank you, Senator Duckworth. I think that it 
is important to make sure, as you pointed out, this 
Administration has prioritized equity and environmental 
justice, and I think that the policies need to reflect that.
    I think where funding programs are concerned, we have to 
make sure that those communities that are underserved, those 
communities that have been most vulnerable to the impacts of 
climate change, those communities that have been most 
vulnerable to lead in drinking water have the resources that 
they need, again, to thrive on equal footing with every other 
community.
    So when we look at funding programs, as you are considering 
not only higher levels of funding, but also considering more 
grant funding, recognizing that those underserved communities 
that have environmental justice challenges may not be able to 
take advantage of loans to address the issues that they grapple 
with. So that is something that, as we look at those funding 
programs, we have to make sure that they work for everyone, 
even as we are looking at how much additional funding we are 
putting into those programs.
    Senator Duckworth. Thank you.
    Ms. Chard.
    Ms. Chard. Thank you, Senator. I think this is an area that 
is an opportunity where we can be creative and think outside 
the box a little bit. As we start working with these 
disadvantaged communities, rural communities, some of them are 
served by their own independent systems, but some of them may 
be subsections of existing, much larger water systems.
    So, I think we need to look at what we can do to assist 
those communities, and we can do some of that through some of 
the funding that is non-traditional for the water and 
wastewater infrastructure. If we look at some of the funding 
that the Department of Agriculture has through their Rural 
Development Program, they can help us a lot there.
    Also, boots on the ground technical assistance providers 
working with the States, we have the Department of Energy Grand 
Water Security Challenge. That is funding that can allow 
industries and others to innovate water savings, water 
efficiency, and that can free up fresh water for drinking that 
may need less treatment if we are reusing industrial waters for 
industrial purposes.
    So I think we can do a lot of different things, we just 
have to think a little bit differently than we have in 
traditional funding and traditional operation. So I will leave 
it there. Thank you.
    Senator Duckworth. Thank you.
    Mr. Ohle.
    Mr. Ohle. Thank you, Senator. I think, obviously, the grant 
funding and forgivable loan funding is important, accompanied 
by technical assistance. But I also think the flexibility that 
needs to be built into those funding programs is really 
important.
    You heard Senator Sullivan talk about, there are going to 
be different options that work in different communities, based 
on the local needs. So creating flexibility within the funding 
programs to align and focus on solutions that work in different 
regions of the country in different ways is really important.
    Senator Duckworth. Thank you.
    Mr. Ohle, not all communities are able to afford the most 
advanced water systems or around the clock operators. However, 
they still need to be able to provide safe, reliable water to 
their customers.
    In Illinois, we have towns that are so desperate for 
assistance in updating their wastewater or drinking water 
infrastructure, yet they have no idea where to start or what 
funding opportunities even exist for them.
    Could you help explain how non-profit organizations like 
RCAP can help these systems and address why Federal funding for 
technical assistance grants is so important? You have touched 
on this already, but I am going to give you time to expand.
    Mr. Ohle. Thank you, Senator. It is a fundamental aspect of 
the work that we do on the ground with communities. It is 
helping communities both understand where funding opportunities 
exist, what you have to have in place to actually go in and 
apply for those, but also helping with the actual applications. 
Many of these communities don't have the capacity for a grant 
writer or someone who may understand all the intricacies of 
Federal funding opportunities.
    So technical assistance providers can be utilized to help 
communities understand both where and what options there are 
for funding, but also how to actually access the funding, how 
to maintain all of the rules and requirements that come with 
that funding, and ensure that their systems are sustainable in 
the long run.
    Senator Duckworth. I couldn't agree with you more. Some of 
these municipalities literally have a mayor and maybe one other 
person, and that is it.
    Ms. Chard, as the former president of the Association of 
State Drinking Water Administrators, you understand what 
happened in Flint was an absolute disgrace, but you also know 
that this is not an issue that is limited to just one town. In 
my State of Illinois, we have almost a quarter of all the lead 
service lines in the Nation.
    With EPA's recent decision to delay the enforcement date of 
the lead and copper rule, I am encouraged that the Biden 
administration will take a more aggressive approach on the war 
against lead than the previous Administration. That being said, 
the cost of full pipe replacement is huge, and some places will 
never be able to afford this without help.
    Ms. Chard, can you tell us why Federal funding through 
programs like the SRFs, Lead Reduction Grants, and Reducing 
Lead in School Grants are critical for protecting our 
communities?
    Ms. Chard. Thank you, Senator, and I really appreciate the 
opportunity to speak on this issue. We have to address lead 
service lines; we have to address the end problem, which is 
lead, in drinking water.
    As we go through a review of the proposed rule, and we will 
see how it all turns out in the end, but everybody has the same 
end goal, and that is getting the lead out of our drinking 
water.
    Funding programs at the Federal level and at the State 
level has to happen in order for that expense to be manageable. 
Otherwise we end up in a situation where only the very wealthy 
areas can afford to do that kind of service line replacement.
    But we also need to focus on what we can do to minimize the 
lead leaching from those in home plumbing fixtures. That is a 
part of this that sometimes gets missed, that we have old 
plumbing fixtures in homes, in schools, in daycares. That is an 
area where we need to focus technical assistance and treatment 
operation at the plant, and we need to work with those 
facilities in our cities and our towns.
    We have a work group in Oklahoma that includes the 
Department of Education and the State PTA. Getting them on 
board and working with us to look at treatment and look at 
grant programs that they could put together to help with 
replacement of equipment in those vulnerable populations that 
are served.
    So we have a lot of different options, but we have to fund 
them, and we have to look at what are the right decisions for 
each of our communities and those populations served in order 
to truly be successful. Thank you.
    Senator Duckworth. Thank you, and I yield back to the 
Chairman, who is back from his vote.
    Thank you.
    Senator Carper [presiding]. Nice job. You look like you 
have been doing this forever.
    [Laughter.]
    Senator Carper. Thanks so much for your leadership on these 
issues, and thanks so much for chairing while we somehow make 
all this work this morning.
    To our witnesses, it is not always this crazy. But this is 
an important issue, and I am glad we are able to make it all 
work. Most of our members are coming and asking questions, and 
we appreciate very much, again, your participation near and 
far.
    I didn't realize, Ms. Powell, you are right here in the 
same room. This room is about the size of RFK Stadium, so you 
are over there, at the other end of the bleachers. Welcome, it 
is nice of you to join us in person.
    Among the things I have heard as we have gone through this 
hearing is the need to focus on retirements. People never 
retire around here, at least not very often. But almost 
everyone who has spoken today has talked about the need to 
provide training for folks to fill the shoes of those who are 
retiring in the next 5, 10 years.
    Ms. Powell, how much of an issue is that for you here in 
your jurisdiction, here in DC?
    Ms. Powell. I think it is an issue for us. Like every other 
utility, we are faced with trying to find replacement workers 
and seeing folks with a lot of experience operating our 
facility.
    Senator Carper. OK, that is fine. That is all I need, but 
it is an issue, it is an important one.
    Ms. Powell. It is.
    Senator Carper. Good.
    Ms. Chard, same question. Is it an important issue, or not, 
for you folks?
    Ms. Chard. Absolutely, an important issue at the utility 
level and at the State and Federal level. Because if regulators 
are writing rules, if they don't have the experience or the 
knowledge, it just makes the problem for the regulated 
community so much worse.
    Senator Carper. OK, thanks, Ms. Chard.
    Mr. McNulty, Michael, what kind of problem is this in West 
Virginia, the Mountain State?
    Mr. McNulty. It is a big problem, Senator. It is very, very 
important to us.
    Senator Carper. OK.
    Mr. Ohle. Same question. Is this an issue of concern?
    Mr. Ohle. I would say it is one of the most important 
issues confronting small and rural and tribal communities 
across the country.
    Senator Carper. All right.
    The American Recovery Plan was just passed and signed into 
law by the President about a week ago. It includes a dramatic 
increase in the Economic Development Administration, EDA, from 
$300 million to $3 billion. A piece of that money might be 
available to help in this retraining effort. The other moneys 
that are in the same piece of legislation are set aside, or I 
think earmarked, for retooling, retraining workers in skills 
that are hard to find.
    So in the day and age, and I think of my native West 
Virginia when I think of this, but the day and age when we have 
a lot of folks who are looking for work, would love to have a 
job, the previous jobs have gone away, and we need people who 
can work in the utilities industry and make sure we get water, 
clean water, to drink and deal with our wastewater. This seems 
like maybe a marriage made in heaven. It is a good one for us 
to take advantage of.
    I want to ask a question, this would be for the entire 
panel. I want each of you to take no more than a minute in 
responding if you would.
    Communities across this country have water systems that are 
aging, as we have heard repeatedly. Many cities are 
inadequately sized to address community water needs and are 
comprised of antiquated and banned equipment, such as lead 
pipes. We have seen this play out in community after community.
    I will start with you, Ms. Powell. Do you believe that 
supporting local investments in drinking water and wastewater 
infrastructure is a vital--the word vital--Federal 
responsibility? If so, why?
    Ms. Powell. I absolutely do, Senator Carper, and I think 
for two reasons. One, because it certainly supports the 
communities, the public health and welfare of our communities, 
but it also provides an economic opportunity. For every million 
dollars that we invest in our infrastructure, there is an 
economic impact of 15 and a half jobs. At a time like this, I 
think the water sector has a shot to be part of getting this 
country back on its feet, if we have the money to invest.
    Senator Carper. All right, thanks.
    Same question for Ms. Chard, please.
    Ms. Chard. Absolutely, we have to invest locally, in our 
communities, and at the State level. Economic development 
depends on water, public health depends on water, our way of 
life, our recreation, all comes back to water and wastewater 
treatment availability. We have to all be in this together and 
encourage camaraderie and investment as we move forward.
    Senator Carper. Thanks. I like to think of it as a shared 
responsibility. It is not all on the Federal Government, but it 
is shared responsibility.
    Mr. McNulty, from West Virginia, go ahead, please. Same 
question.
    Mr. McNulty. Yes. I agree, Senator. This is a shared 
responsibility. We certainly need clean water. We need that 
investment in our communities for economic development, as well 
as for health and safety, especially for those that are most 
vulnerable. So again, I think it is vital that we have Federal 
support.
    Senator Carper. All right, thank you.
    Same question, Mr. Ohle, thank you.
    Mr. Ohle. Yes. Thank you, Senator.
    I think water access and wastewater access is one of the 
most underappreciated parts of economic development and 
economic growth. No business is going to stay or grow in a 
community without access to sanitary wastewater. No family that 
has the means to is going to stay in a community without access 
to safe drinking water. So water and wastewater access and 
affordable water and wastewater access is an incredibly 
important piece of the economic development puzzle.
    Senator Carper. All right, thanks so much.
    Mr. Ohle, if you will stay with us, I have a follow up 
question on resiliency, please. There is a lot of discussion 
right now about reinvesting in aging infrastructure and 
ensuring our systems are resilient to climate change, not just 
now, but well into the future.
    Rural and small water systems are significantly more 
burdened by system aging, by climate change because they 
operate in such thin margins. Question: how is RCAP helping 
small systems prepare for and address our changing climate and 
the resulting extreme weather events, please?
    Mr. Ohle. We work with communities of all shapes and sizes 
in different regions of the country on these issues, whether 
you are talking about coastal erosion, whether you are talking 
about flooding issues that have become more prevalent. We are 
working with communities to help them build the resiliency on 
the front end, but certainly, obviously also on the back end of 
recovery, as these events continue to happen. It is our focus 
to try and help build capacity at the local level to take on 
these issues and ensure they have the expertise and know-how to 
actually execute on those.
    Senator Carper. All right. Thanks for that response.
    Let me just follow up on the same issue of resiliency 
please, with a question for Mr. McNulty.
    Would you just share with us what your experience has been 
in Morgantown and in West Virginia in addressing more frequent 
extreme weather events? Mr. McNulty.
    Mr. McNulty. We have undergone several flooding issues here 
over, since 2001. The technical assistance provided by our 
Rural Water Association has been just invaluable in getting 
these folks back on their feet and other utilities coming to 
their aid, especially down in Clay, Wyoming, McDowell Counties. 
I mean, they have just been ravaged. So, we are seeing these 
programs, the rural water programs, are just wonderful programs 
to help.
    Senator Carper. Thank you, sir.
    Kishia Powell, maybe a question on infrastructure 
maintenance. Ms. Powell, you are currently, I understand, the 
CEO, is that right, the CEO of DC Water?
    Ms. Powell. COO.
    Senator Carper. COO, OK. Maybe someday, CEO? Today, the 
future CEO of DC Water, but you have had leadership roles in 
other communities, including Jackson, Mississippi. Is that 
right?
    Ms. Powell. Yes, sir.
    Senator Carper. And as you know, Jackson still has large 
parts of the community without access to water, after the 
winter storms have shut down expansive parts of the south, 
including the entire State of Texas.
    As I understand it, Jackson has yet to fully implement its 
full suite of options to respond to the storm. What happened in 
Jackson could have been any community in America. Climate 
change is making the concerns of aging infrastructure even more 
prevalent and worrisome.
    Ms. Powell, can you speak more about what it takes to 
maintain an aging infrastructure network like Jackson and make 
upgrades while keeping rates affordable? It is a little like 
changing the engine of an airplane while you are in flight. Go 
ahead.
    Ms. Powell. It absolutely is, and if you have been in that 
position, there is nothing more deflating for a water operator 
to be fighting to keep continuing to provide service to a 
community with infrastructure failure after infrastructure 
failure. I think the importance of maintaining what we have 
cannot be underscored.
    We talk a lot about investing in infrastructure to build 
new because the regulatory programs that we have. We have to 
sometimes build new infrastructure like the DC Clean Rivers 
Program at $2.7 billion. But when you have billions of dollars 
of assets in the ground, and as you pointed out, ASC's data 
point that there is a water main break every 2 minutes in this 
country, that underscores the need to maintain what is already 
there.
    I think we have to do both. We have to have funding levels 
that allow us to build new, to leverage opportunities for new 
technology. We also have to have the funding to be able to 
maintain our infrastructure, to maintain our plants, our pump 
stations, so that we can serve reliably and we can achieve a 
level of resilience.
    Senator Carper. With your DC Water add on the left on my 
list, my last question for this hearing--I have to go back. I 
am going to ask everyone a wrap up question, just one point you 
would really drive hard. One point for my colleagues and me, 
with respect to these issues before us today, one point you 
think is, if it is already been said, that is fine. Say it 
again. Just reiterate. Repetition is good.
    Question, with respect to DC Water, Ms. Powell; DC Water 
provides water for all here in the Nation's capital, we thank 
you for that. All around the country, the situation is the 
same. We want safety, we want resiliency, we want reliable 
service, it is all critical.
    Would you just take a minute and discuss the steps DC Water 
has taken or is taking to address risks, while vulnerabilities 
to water delivery and ensure it is resilient to climate change? 
Just briefly, 1 minute please, thank you.
    Ms. Powell. Yes, sir, and thank you for the question. We 
are taking several steps. We are making sure that our 
infrastructure in the ground can reliably serve the District. 
We know that we have some very important customers here. It can 
be a matter of national security to make sure that we have our 
systems intact.
    We are also looking at cyber and making sure that we have a 
cyber security infrastructure in place that can support our 
systems. We have teams in place that are constantly looking at 
gaps to make sure that we close those gaps and maintain a state 
of readiness at all times to respond.
    But all of those things take funding. If we don't have 
that, in terms of being able to access Federal funding, then 
that has to come from our ratepayers. So I would just continue 
to ask and NACWA urges for higher levels of Federal funding for 
the water sector.
    Senator Carper. Fair enough. Thank you so much. The squeaky 
wheel gets the grease.
    Ms. Powell. We need billions in DC.
    Senator Carper. All right, well, that is a lot of grease. 
OK.
    Thank you, and thanks again for being with us today.
    Real quick wrap up question, just no more than 30 seconds 
per person. One point you would really like to hammer home, if 
we remember nothing else from what you said. Let's hear from 
you right now. Repeat whatever it is.
    Ms. Chard, you go first, please.
    Ms. Chard. So, I would just say, very simply, the setting 
of standards by EPA or Congress, that is not ultimately what 
protects public health. It is getting those standards 
implemented, and we need funding to get those standards 
implemented and protect public health. Thank you.
    Senator Carper. Thank you, ma'am, and thanks for joining 
us.
    Mr. McNulty, please. Same question.
    Mr. McNulty. Debt forgiveness, Senator. So many of our 
rural systems are struggling. They are so debt heavy, there is 
no room to grow. If you could find a way to forgive a lot of 
that debt, that would be wonderful.
    Senator Carper. All right. Thank you, sir. It is great to 
have you here.
    I just got a very nice text message yesterday from Gordon 
Gee, President of West Virginia University in Morgantown, a guy 
you probably know. He calls me a buccaneer, combination of Ohio 
State Buckeye and the Mountaineer State. I have been called a 
lot worse than that.
    Mr. Ohle, please.
    Mr. Ohle. Yes. Just, the knowledge and need to fund more 
technical assistance to ensure that communities that need these 
funds the most get access to them and understand how to access 
those funds.
    Senator Carper. All right, fine. Thank you, sir.
    Ms. Powell, you get the last swing here.
    Ms. Powell. Yes, sir. I would say that we have to push past 
equity to achieve environmental justice. We have to look beyond 
investing equally among infrastructure sectors and focus on 
investing equitably. To coin a phrase of a good friend, this is 
water's moment, and we have a clear opportunity here to help 
the country get back on its feet. Give us a shot.
    Senator Carper. That is great. With respect to equity, the 
first slogan I ever heard related to that, it is repeated 
actually, in every major religion of the world. I think you 
find it in the Old Testament and the New Testament and in every 
major religion of the world, and it is the Golden Rule. Treat 
other people the way we want to be treated.
    That is what racial justice is all about. Whether people 
live on the other side of the street, the other side of town, 
or the other side of the world, we have a moral obligation to 
them, and to always keep in mind the least of these in our 
society, and that includes making sure they have clean water to 
drink.
    It has been a great hearing, an unusual hearing, but in the 
end, I think a terrific hearing. I am grateful.
    Our majority staff is led by Mary Frances Repko, and leader 
of our water team, John Keene on the Republican side.
    On the minority side, I want to say many, many thanks to 
Adam and the team that he leads for Senator Capito.
    We appreciate Senator Duckworth and Senator Lummis in their 
leadership of their relevant Subcommittees, too.
    I want to ask unanimous consent to place all materials into 
the record. Materials to submit for the record include a number 
of reports, articles, and statements for the record, focused on 
the need for Federal investment in drinking water and clean 
water related infrastructure for our Nation. These materials 
show that the Nation's infrastructure has suffered from 
inadequate investments and from extreme weather and climate 
related events that are happening far too frequently.
    [The referenced information follows. Due to size 
constraints some documents are not included below but are 
available in Committee files.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Carper. Just a real quick closing statement, to all 
of our witnesses, whether they happen to be coming in from 
Oklahoma or right across the room here, from West Virginia or 
some other place, we are happy to see you in person or 
remotely. And for whoever develops these systems, makes all 
this work, so many things could have gone wrong today, and they 
didn't. I am just grateful.
    I am shocked by the bipartisan consensus that we have heard 
today, and we are a Committee that is, I think, known for the 
way that we work together, sort of the 80-20 rule. I am almost 
tempted to ask everyone here to stay together, we will sing a 
little Kum-Ba-Yah, maybe a verse or two of Kum-Ba-Yah would 
probably be appropriate.
    But in all seriousness, at any point in this hearing, I 
really had the sense that if I were blindfolded and didn't know 
who was at the microphone on our side, here on this side of the 
dais, I probably would have no idea whether the Senator 
speaking was a Democrat or a Republican. That is exactly the 
way it should be on issues like these. We all know that the 
need for clean, safe, water, it is not a red State or blue 
State issue, it is a human issue, one that we have a shared 
moral responsibility to address.
    So I am proud of us coming together in common purpose 
today. I hope we will continue in that manner to take action to 
bring safe, clean water to the American people.
    For some final housekeeping, Senators will be allowed to 
submit questions for the record through close of business on 
March 31st. That is through close of business on March 31st. We 
will compile those questions, we will send them to our 
witnesses, and we will ask our witnesses to reply to them by 
April 14th, if you would.
    With all of that, it is a wrap.
    [Whereupon, at 12:29 p.m., the hearing was adjourned.]

                                 <all>
</pre></body></html>
